<html>
<title> - RESOLVING CRISES IN EAST ASIA THROUGH A NEW SYSTEM OF COLLECTIVE SECURITY: THE HELSINKI PROCESS AS A MODEL</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   RESOLVING CRISES IN EAST ASIA THROUGH A NEW SYSTEM OF COLLECTIVE 
               SECURITY: THE HELSINKI PROCESS AS A MODEL

=======================================================================

                                HEARING

                               before the

           COMMISSION ON SECURITY AND COOPERATION IN EUROPE:
                        U.S. HELSINKI COMMISSION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            
            
            
            
            
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
            
            
            
     
            
            


                   Available via http://www.csce.gov
                   
                            ________________
                   
                      U.S. GOVERNMENT PUBLISHING OFFICE
  95-402                     WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           CHRIS SMITH, New Jersey,
  Chairman                               Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi            ALCEE HASTINGS, Florida,
SAXBY CHAMBLISS, Georgia                 Co-Chairman
JOHN BOOZMAN, Arkansas               LOUISE McINTOSH SLAUGHTER,
                                       New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee
                                     
                                     
                                     
                                     
                                     
                                 (II) 
                                 
                                 
                                     
                                     
                                     

   RESOLVING CRISES IN EAST ASIA THROUGH A NEW SYSTEM OF COLLECTIVE 
               SECURITY: THE HELSINKI PROCESS AS A MODEL

                              ----------                              

                           December 11, 2013
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

                               WITNESSES

Carl Gershman, President, National Endowment for Democracy.......     3
Karin Lee, Executive Director, National Committee on North Korea.     6
Frank Jannuzi, Deputy Executive Director, Amnesty International..     9

                               APPENDICES

Prepared statement of Carl Gershman..............................    24
Prepared statement of Frank Jannuzi..............................    27
Prepared statement of Karin Lee..................................    31



  
  

                                (III)
                                
                                
                                
                                






   RESOLVING CRISES IN EAST ASIA THROUGH A NEW SYSTEM OF COLLECTIVE 
               SECURITY: THE HELSINKI PROCESS AS A MODEL

                              ----------                              


                           DECEMBER 11, 2013

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.

    The hearing was held from 1:26 to 2:23 p.m. EST, SD-106 
Dirksen Senate Office Building, Washington, DC, Senator 
Benjamin Cardin, Commissioner, Commission on Security and 
Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Commissioner, 
Commission on Security and Cooperation in Europe.
    Witnesses present:  Carl Gershman, President, National 
Endowment for Democracy; Karin Lee, Executive Director, 
National Committee on North Korea; and Frank Jannuzi, Deputy 
Executive Director, Amnesty International.

              HON. BENJAMIN CARDIN, COMMISSIONER,

        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Cardin. Let me welcome you all to the Helsinki 
Commission hearing. I want to apologize for the change in time. 
The hearing was originally scheduled to start at 2:00. We're 
starting at 1:00 because there will be a briefing today on the 
Iranian sanction agreement and there is tremendous interest 
that all senators be there. And Secretary Kerry will be making 
a presentation that I feel obligated to be personally present 
for. So I want to thank you all for adjusting your calendar so 
that you could be here at 1:00. I'm going to put my full 
statement in the record but just let me make a few observations 
to start.
    When the Helsinki process started in 1975, there were many 
naysayers in the United States. They were saying: How can such 
a large regional organization be effective which only has 
consensus as a way of making decisions; there are no sanctions 
for failure to comply with the Helsinki commitments; that the 
Soviet Union would use this as propaganda rather than dealing 
with the real problems that their country faces in complying 
with the commitments that were made in 1975. There are others 
who said: When you combine human rights with economics and hard 
security issues, human rights will get lost in the equation, 
and that this organization will just be another example of how 
we deal with hard security issues or perhaps some of the trade 
or economic issues but that human rights would not be front and 
center.
    I think history has proven both of those concerns to be 
without merit. Now the OSCE, Organization for Security and 
Cooperation in Europe, has become a dominant factor, bringing 
people together to talk about problems and to advance causes in 
all of the member states, particularly on the basket of human 
rights and good governance. It's known for that globally. And 
there are so many organizations that tie into the OSCE because 
they know they have a friend on advancing human rights.
    The U.S. Helsinki Commission has taken leadership on so 
many different issues, from trafficking to anticorruption to 
the protection of minority communities, and we have effectively 
brought about changes in not just the OSCE member regions but 
throughout the globe. We have expanded within the OSCE. We 
have, of course, partners in the OSCE outside of the OSCE 
region. I'm particularly pleased about the advancement of the 
OSCE footprint in the Mediterranean. We have partners from 
Afghanistan to Israel to Jordan to North African countries, and 
we have strengthened the Mediterranean dimension that has 
brought about significant progress.
    When I was in Israel many years ago, promoting at the time 
the OSCME, the Organization for Security and Cooperation in the 
Middle East, I remember meeting with then-president Peres and 
asked whether Israel would be interested in joining such a 
regional group, recognizing that there would be many Arab 
states and just one Jewish state. His answer to me: We want any 
type of regional organization that allows us to communicate, 
because we think talking with our neighbors is the best way to 
work out problems, and that the OSCE has been so successful 
among countries with very different views that that model would 
work well in the Middle East.
    So when President Park of South Korea was here in 
Washington and addressed a joint session of Congress and 
mentioned her support for a regional organization for East 
Asia, it got my attention. I then traveled to the region and 
had a chance to talk to the leadership of China, Japan and 
Korea. All three underscored what they thought made good sense 
for their own interests if there was a regional organization 
similar to the OSCE for East Asia.
    The main concern is clearly North Korea today. Now, that 
may change a decade from now. We hope it does. And North Korea 
is interesting because it's not just the security issues of 
their nuclear ambitions--and there is unanimity among Japan, 
China and South Korea that they want a nuclear-free Korea 
Peninsula. They all agree on that. But it's also the human 
rights and economic issues within Korea that--North Korea which 
is problematic. The people there are some of the most oppressed 
in the world. And their economic prosperity is near the bottom 
of the global world also, with people literally being starved 
to death.
    So having a regional organization modeled after the OSCE or 
within the OSCE that can help dialogue between the countries of 
East Asia seems to me to be a very positive step in trying to 
resolve some of the long term conflicts. And of course I could 
mention China's most recent activities concerning their air 
security zone, which raises tension. It seems to me that if 
there was an OSCE for East Asia, that that mechanism could also 
have been helpful to deal with maritime security issues.
    So it goes on and on and on, the type of matters that we 
believe this type of process could be very helpful in dealing 
with these concerns. So it was for that reason that I was very 
pleased that today's hearing could take place so we can start 
to establish a record as it relates to whether and how we can 
move forward on this type of proposal for East Asia. I must 
tell you my interest is a little bit higher today because, in 
addition to chairing the U.S. Helsinki Commission, I also chair 
the Subcommittee on East Asia and the Pacific of the Senate 
Foreign Relations Committee.
    I very much welcome the panel of experts that we have here 
today, all of whom have incredible credentials in this area: 
Carl Gershman, the president of the National Endowment for 
Democracy, and one of the longstanding supporters and advocates 
for human rights across the globe, and has been a longstanding 
advocate of using our Helsinki process experience in East Asia. 
Karin Lee, who is the executive director of the National 
Committee on North Korea. In that capacity she oversees the 
committee's work to facilitate engagement between citizens of 
the United States and the Democratic People's Republic of 
Korea. So she has a good deal of experience here. And Frank 
Jannuzi, who is the deputy executive director of Amnesty 
International and is a former advisor to then-Senator Kerry, 
and also has experience at the State Department on--working on 
multilateral affairs.
    So it's wonderful to have all three of you here. And we 
welcome your testimony, but more importantly we welcome your 
involvement as we try to find ways to use the success of the 
Helsinki process to bring better understanding and cooperation 
in other parts of the world. And with that, we'll start with 
Mr. Gershman.

                   CARL GERSHMAN, PRESIDENT,

                NATIONAL ENDOWMENT FOR DEMOCRACY

    Mr. Gershman. Thank you very much, Mr. Chairman. And thank 
you to the Helsinki Commission for organizing this hearing at a 
critical moment in U.S. relations with Northeast Asia.
    It was almost eight years ago to the day that I and several 
others, active on human rights in North Korea, joined with 
policy in Korea affairs specialists to form a working group to 
consider how a comprehensive framework involving international 
security, economic cooperation, human rights and humanitarian 
aid could be developed for the Korean Peninsula and more 
broadly for Northeast Asia. I'm very happy that Roberta Cohen, 
who is a member of that working group and who co-chairs the 
Committee for Human Rights in North Korea is with us today.
    Our decision to form this group followed the agreement 
reached in the six-party talks to explore ways of promoting a 
common political, economic and security agenda linking the two 
Koreas with China, Russia, Japan and the United States. This 
opened the door to creating a permanent multilateral 
organization for advancing security and cooperation in 
Northeast Asia, one of the few regions of the world without 
such a mechanism.
    Ambassador Jim Goodby of our working group, who had played 
a key role in developing the ``basket three'' human rights 
provisions that became part of the Helsinki Final Act, drafted 
the first of several papers that spelled out how the 
negotiations to resolve the North Korean nuclear issue and 
achieve a final settlement of the Korean War could evolve into 
a Helsinki-type process for Northeast Asia, leading to the 
eventual creation of a multilateral and multidimensional 
organization for collective security.
    The effort to encourage such a process had the strong 
backing of Ban Ki-moon at the time. He was South Korea's 
foreign minister, of course now the secretary general of the 
United Nations, who told a major gathering in Helsinki in 
2006--a gathering of Asian and European leaders--that--and I 
quote, ``The challenge for Northeast Asia is how to draw upon 
the European experience to build a mechanism for multilateral 
security cooperation.''
    Building such a mechanism was the focus of one of the five 
working groups of the six-party talks, but efforts to implement 
the idea were aborted when the talks broke down at the end of 
2008. Since then, international relations in Northeast Asia 
have become much more confrontational. The region suffers from 
what South Korea's President Park has called Asia's paradox, 
which is an acute discrepancy between the region's dynamic 
economic growth and interdependence on the one hand and the 
rise of nationalism, conflict and distrust on the other.
    Clashes over disputed maritime space in the East China Sea, 
North Korea's nuclear threat and provocative brinksmanship, 
intensified military competition and historically rooted 
tensions even between such ostensible allies as Japan and South 
Korea have heightened anxiety over prospects for violent 
conflict in the region. The situation has just become, of 
course, even more dangerous with China's unilateral 
establishment of an Air Defense Identification Zone overlapping 
with Japan's own air defense zone, and encompassing South 
Korea's Leodo reef as well. In the words of The Economist, 
``China has set up a causus belli with its neighbors and 
America for generations to come.''
    Ironically, whereas North Korea's nuclear program was the 
catalyst for the six-party talks and the possible creation of a 
system of collective security for Northeast Asia, it is now the 
grave deterioration of the security environment in the region 
itself that could act as such a catalyst. The crisis certainly 
dramatizes the critical need for such a system, though that is 
a long-term goal while the immediate need is for measures to 
reduce risk, enhance communication through military hotlines 
and other instruments that might prevent miscalculations, and 
to begin to develop military confidence-building measures 
similar to those negotiated in the CFCE framework.
    Nonetheless, it's not too early to begin thinking about a 
more comprehensive architecture that would provide a forum for 
regional powers to discuss security. The Economist suggested 
that such a forum, had it existed in Europe in the early part 
of the last century, might have prevented the outbreak of World 
War I, and that there are disturbing parallels to the situation 
in Northeast Asia today with the Senkaku Islands playing the 
role of Sarajevo.
    For such a forum to be sustainable and effective, a 
security dialogue would need to be buttressed by a broader 
program of exchanges and economic cooperation. It has been said 
that adding a ``basket three'' human dimension would not work 
for Northeast Asia because the region's autocracies are well 
aware of the liberalizing consequences of the Helsinki process 
in Eastern Europe and the Soviet Union, but it's hard to 
imagine a system of collective security working out without 
more interaction at the societal level and having a broader 
context for negotiations that would make possible tradeoffs 
that might facilitate reaching an agreement.
    Northeast Asia may be different from the region encompassed 
by the Helsinki process, but the ``Sakharov doctrine'' 
regarding the indivisibility of human rights and international 
security has universal relevance and should not be abandoned 
even if it has to be adapted to the circumstances of the 
region.
    In addition to the incentive provided by the current crisis 
to explore a new system of collective security for Northeast 
Asia, I want to note two other factors that can be helpful. The 
first is the vigorous support given to the idea by President 
Park when she addressed the joint session of Congress last May, 
as you have noted, Mr. Chairman. Her statement has of course 
now been overshadowed by the momentum toward confrontation in 
South Korea's declaration of an expanded air defense zone 
partially overlapping China's and including Leodo only adds to 
this momentum.
    Still, South Korea's understandable response to China's 
over-reaching may help to establish the strategic balance 
needed to negotiate an end to the current crisis. And President 
Park's commitment to a system of collective security shows that 
she may want to use this crisis to make the case for a broader 
architecture. Her capacity to provide leadership at this 
critical time should not be underestimated.
    She demonstrated both toughness and a readiness to 
negotiate when, after a period of heightened tension following 
North Korea's nuclear test explosion last April, South Korea 
reached an agreement with the North to reopen the Kaesong 
Industrial Zone. This experiment in economic cooperation shows 
the potential for President Park's ``trustpolitik'' through 
North Korea's cancellation--though North Korea's cancelation of 
family reunions that were part of the Kaesong agreement also 
shows how--how difficult it will be to sustain any kind of 
engagement with Pyongyang.
    Still, her steadiness of purpose is encouraging, as is her 
desire, as she told the Congress last May, to use the trust-
building process that she has started ``beyond the Korean 
Peninsula to all of Northeast Asia, where,'' she said, ``we 
must build a mechanism of peace and security.'' That goal would 
be significantly advanced, I think, if she would apply her 
``trustpolitik'' to Japan, as well.
    The other helpful factor is the potential role of Mongolia. 
In a recent paper contrasting the challenge of building a 
collective security system in Europe and Asia, the Japanese 
diplomat Takako Ueta wrote that Northeast Asia--and this is a 
quote--``lacks a neutral country with diplomatic skills and 
efficient conference support comparable to Austria, Finland, 
Sweden or Switzerland.'' But that is not true, because Mongolia 
is such a country.
    Last April, when Mongolia chaired the 7th Ministerial 
Conference of the Community of Democracies, its president, 
Elbegdorj, announced the Ulaanbaatar Dialogue on Northeast 
Asian Security, an initiative to broaden--I quote--``from our 
Mongolian friends, a dialogue mechanism on security in 
Northeast Asia that will give''--again, quote--``equal 
consideration of the interest of all states and set a long-term 
goal of building peace and stability in the region.''
    Mongolia has an unusual geopolitical situation. Sandwiched 
between China and Russia, it has maintained what President 
Elbegdorj called neighborly good relations with these two big 
powers, as well as with the other nations in the region, which 
he--which he calls our third neighbor. It even maintains good 
relations with North Korea, which were not spoiled when 
President Elbegdorj concluded a state visit to the DPRK on 
October 30th with a speech at Kim Il-Sung University in which 
he said, and I quote, ``no tyranny lasts forever, it is the 
desire of the people to live free that is the eternal power.'' 
He also told his North Korean audience that 20 years earlier, 
Mongolia had declared herself a nuclear-free zone, and that it 
prefers ensuring her security by political, diplomatic and 
economic means.
    Mongolia's international position is rising. In addition to 
chairing the Community of Democracies, it recently joined the 
OSCE--I know it had your support in doing so--and may soon 
become a member of the Asia-Pacific Economic Cooperation 
Organization. Last September, at the opening of the General 
Assembly in New York, President Elbegdorj was the only head of 
state invited to join President Obama in presiding over a forum 
of the administration's Civil Society Initiative, that seeks to 
defend civil society around the world against growing 
government restrictions.
    Henry Kissinger, writing about Austria's chancellor, Bruno 
Kreisky, observed that--and I quote--``one of the asymmetries 
of history is the lack of correspondence between the abilities 
of some leaders and the power of their countries.'' President 
Elbegdorj is such an outsized leader of a small country, and 
the fact that he is now positioning Ulaanbaatar to play the 
kind of role in Northeast Asia that Helsinki once played in 
Europe could be an important factor leading to a system of 
collective security in Northeast Asia.
    The region certainly has its own distinctive 
characteristics, and Helsinki does not offer a readily 
transferrable cookie-cutter model for East Asia or any other 
region, but as Ambassador Goodby said in one of the papers he 
wrote for our working group, so long as nation-states are the 
basic building blocks of the international system, the behavior 
of these units within that system is not likely to be radically 
dissimilar. History suggests that autonomous behavior by 
powerful nations, behavior that ignores the interests of 
others, sooner or later, leads to disaster. The corollary of 
this lesson is that some mechanism has to be found, be it 
implicit or explicit, to allow for policy accommodations and 
for self-imposed restraint within a system of nations. To fail 
to do so is to make a collision almost inevitable.
    Thank you, Mr. Chairman.
    Mr. Cardin. Thank you very much for your testimony.
    Ms. Lee.

                 KARIN LEE, EXECUTIVE DIRECTOR,

               NATIONAL COMMITTEE ON NORTH KOREA

    Ms. Lee. Thank you very much, Chairman Cardin. It's an 
honor to appear before you today to discuss the Helsinki 
process as a model for resolving the crisis in Northeast Asia. 
I have submitted a longer written statement and will now take 
this opportunity to highlight the main points of my written 
remarks.
    I have been the executive director of the National 
Committee on North Korea since February 2006, and my first 
visit to the DPRK was in 1998, and my most recent visit was 
this past October. I just wanted to comment that these remarks 
reflect my own views and are not necessarily the views of my 
organization.
    First, I will reflect on the differences and similarities 
in the United States and Europe in the 1970s and Northeast Asia 
today, then I will discuss private sector or civil society 
activities in the DPRK. I will make three key points: First, 
the history of the two regions in the historical moments are 
very different. To implement a Helsinki-like process in 
Northeast Asia would take considerable U.S. investment.
    Second, despite limited government support, productive work 
is taking place inside the DPRK and with North Koreans 
elsewhere in humanitarian, education and medical fields. The 
United States can contribute to these efforts by delinking 
security policy from what the Helsinki Process called Basket 3 
activities and streamlining its visa process. Finally, 
exchanges on topics of genuine regional interest may contribute 
to a foundation for regional problem-solving.
    The final act asserts that states will respect each other's 
sovereign equality and individuality, as well as all the rights 
inherent in and encompassed by its sovereignty. Nevertheless, 
the Helsinki Process is sometimes credited with contributing to 
the changes that later swept through Eastern Europe. The OSCE 
is best known today for its current work on human rights and 
democratization. Therefore, the DPRK would likely look at a 
Helsinki Process for Northeast Asia as a Trojan horse, 
synonymous with a covert strategy for regime change.
    Yet, the Helsinki Final Act as it was originally conceived, 
a process aiming to increase regional stability by addressing 
the most salient interests of the opposing forces, may have 
merit for Northeast Asia. However, attention must be paid to 
creating an environment where such a process would be possible.
    In my written testimony, I highlighted seven points of 
comparison between 1970s Europe and Northeast Asia today. Now, 
I will address just one issue, willingness to compromise. As 
the--as the commissioners know, the Helsinki Process began with 
a proposal from the USSR to finalize post-World War II 
boundaries and guarantee territorial integrity. Neither the 
U.S. nor its allies were eager to set boundaries; however, the 
West was willing to negotiate, because the dialogue included 
topics that were in its own interest.
    In order to apply a Helsinki-like process to East Asia, the 
mechanism will need to bring everybody's concerns to the table. 
The U.S. and its partners in the region need to re-examine the 
incentives that have been offered to the DPRK in exchange for 
denuclearization.
    I will now turn to people-to-people exchanges. Whereas the 
U.S. had a glowing array of private contacts and exchanges with 
the Soviet Union throughout most of the Cold War, such 
connections with the DPRK have been slow to develop. After 
North Korea issued its first appeal for international 
assistance to respond to the 1990s famine, humanitarian aid 
expanded rapidly. After the famine, a handful of U.S. and other 
NGOs remained active in the DPRK, developing agricultural, 
medical and capacity-building programs. There is now an 
impressive number of Western actors in the DPRK, as shown by 
the engaged DPRK mapping initiative. This web-based tool 
demonstrates the range of private sector activities that have 
taken place in North Korea over the last 18 years.
    While not comprehensive, the online map lists over 1,000 
discrete projects carried out by 480 organizations coming from 
29 different countries. Here are just a few examples: World 
Visions' Community Development Project in Dochi-Ri, a community 
of 12,000, is building water systems and providing solar energy 
for schools, clinics and local residents' homes.
    The Pyongyang University of Science and Technology is the 
first private university in the DPRK. It currently has 400 
graduates and 110 graduate students and plans to expand 
enrollment in 2000 (sic). All of its teachers are foreign. The 
majority of the teachers are from the United States.
    The University of British Columbia Knowledge Partnership 
Program brings North Korean university professors to UBC for a 
six-month study program on topics such as modern economic 
theory, finance, trade and business practices. Such projects 
help build relationships between the DPRK and the West. The 
nongovernmental sector also engages with North Koreans on 
security matters in Track 2 and Track 1.5 dialogue. This 
dialogue at times makes important contributions to official 
diplomacy.
    The most fundamental way the U.S. could support people-to-
people diplomacy is the issuance of visas for North Koreans to 
visit the United States. The Helsinki Final Act declared that 
progress in one area was delinked from progress in other areas. 
However, for most of the last two decades U.S. policy has been 
to approve visas as an incentive or reward to the DPRK while 
denying them to signal U.S. displeasure.
    Cultural exchanges provide a good example of the sharp 
contrast between U.S. policy toward the Soviet Union and toward 
the DPRK. The visit of the New York Philharmonic to Pyongyang 
in 2008 was very successful and widely broadcast throughout the 
DPRK. Musicians and organizations in both countries hope to 
arrange a reciprocal visit by a North Korean orchestra to the 
United States, but U.S. visas for such a visit have never been 
issued.
    Another area for growth may be science diplomacy and 
regional programming on a range of humanitarian environmental 
issues such as disaster and preparedness for public health--or 
public health. The Mt. Paektu Changbai Shan volcano, which 
straddles the Chinese-North Korean border, provides a useful 
example. Mt. Paektu is considered to be the most dangerous 
volcano in China. Recent monitoring has shown signs of worrying 
activity. Planning future eruption scenarios requires gathering 
and sharing data across political borders. Comprehensive 
information sharing is necessary to plan a robust response to 
any volcanic activity.
    In 2011, the American Association for the Advancement of 
Science began a scientific collaboration project with the DPRK 
on Mt Paektu seismic activity. But this is a rare example. The 
DPRK is not a member of regional networks. Institutionalizing 
North Korean participation in regional and bilateral research 
would improve disaster preparedness while also strengthening 
regional collaboration.
    Another particularly beneficial area for scientific 
exchange could be medical consortiums. Medical cooperation in 
Northeast Asia is weak and the DPRK is not included in relevant 
existing medical networks, yet regional collaboration on 
infections disease benefits citizens of all countries. 
Tuberculosis may be of interest to Northeast Asia. Only Sub-
Saharan Africa has higher reported TB rates than the DPRK. 
Integration into regional health networks would build upon this 
strong in-country work of the WHO, the Global Fund and U.S. 
organizations such as the Eugene Bell Foundation, Christian 
Friends of Korea and Stanford University.
    NGO activities in the DPRK are addressing unmet 
humanitarian needs that contribute to the exchange of values 
and ideas. Cultural and educational exchanges add to the 
effectiveness of these ongoing efforts. Such activities, 
including regional networks, should be encouraged for the 
immediate practical benefits they can bring. This could begin 
to establish a pattern of cooperative regional behavior for the 
future.
    Again, thank you for the opportunity to testify today, and 
I look forward to your questions.
    Mr. Cardin. Thank you very much for your testimony.
    Mr. Jannuzi.

FRANK JANNUZI, DEPUTY EXECUTIVE DIRECTOR, AMNESTY INTERNATIONAL

    Mr. Jannuzi. Thank you, Senator Cardin. It's my pleasure to 
be here today. Two previous witnesses have covered some of what 
I had intended to cover, so I will, with your permission, 
summarize my remarks and really get right to the point.
    Mr. Cardin. Thank you. And all of your full statements will 
be made part of the record.
    Mr. Jannuzi. Thank you, Senator.
    Senator, discussing North Korea and how to effect changes 
there really requires us to think about the theory of change 
that we're operating under. And there are those who believe 
that denuclearization of North Korea is the key which unlocks 
the box which holds all of the other changes on human rights, 
economic policies, regional integration, and peace and security 
on the peninsula. I believe that that belief is misguided and 
false. It is unrealistic to expect North Korea to denuclearize 
first and integrate and make peace with its neighbors.
    Second, this doesn't mean that the international community, 
in its efforts to engage North Korea, must somehow reward bad 
behavior, appease North Korea or lift sanctions on North Korea 
that have been in place by the international community and the 
United States because of North Korea's misconduct, but it does 
mean that the hope of denuclearization, to me, rests as part of 
a process that changes fundamentally the strategic environment 
within which North Korea makes decisions about its future, and 
changing that environment is what the Helsinki process for 
North Korea could offer.
    Now, the recent leadership change in North Korea has put it 
back on the front pages, but to me this only underscores the 
realization that North Korea's challenge to us is, in fact, 
multidimensional. We would not be having the same concerns 
about North Korea's nuclear program if its human rights record 
were not what it is. And that human rights record, let me say 
on behalf of Amnesty International, is of course appalling.
    Recent satellite imagery analysis done by Amnesty 
International has confirmed the continuing investments in North 
Korea's architecture of repression: the gulags which house 
perhaps 100,000 North Korea citizens, including men, women and 
children, without hope of parole or a life after prison. The 
gulags are not fading and disappearing. In fact, our recent 
analysis shows that they continue to be enlarged in some cases 
and modernized. It is against this backdrop of unbelievable 
human suffering in gulags, as well as severe restrictions 
across every other human right--freedom of speech, freedom of 
association, freedom of movement--that the North Korean issue 
must be addressed.
    There is no longer any doubt about the severity of the 
human rights challenges in North Korea. And in fact, the U.N. 
has established a commission of inquiry examining it, which 
will report to the U.N. next spring. But neither is there any 
doubt about the nuclear dimension of the problem. We all know 
what it is. North Korea is producing fissile material. They 
have tested at least three nuclear devices. They continue to 
work on long-range missiles.
    Over the course of six visits to North Korea, I've had the 
privilege at one point of visiting the Yongbyong nuclear 
complex and seeing some of the plutonium product that they had 
produced as a result of reprocessing spent fuel from the 
Yongbyong nuclear reactor. This problem, like North Korea's 
human rights problem, is only getting worse as time goes by.
    Now, for the better part of 30 years the United States has 
attempted to address this challenge by persuading North Korea 
to abandon its pursuit of nuclear weapons, with very 
disappointing results. Most of the attempts to change North 
Korea's trajectory have been focused on that narrow goal of 
denuclearization. And even those like the agreed framework--
which, as my colleagues have pointed out, included an explicit 
basket designed to get at the other regional dimensions of the 
problem--still frontloaded the nuclear issue and left 
everything else to be sort of the kinds of things that would be 
addressed when time was available later, once the North had 
demonstrated the sincerity of their commitment to 
denuclearization.
    But I think the critics of engagement of North Korea have 
at least one thing right: North Korea is not sincere about 
denuclearization yet, and to expect them to make the so-called 
strategic choice to denuclearization in the current environment 
of a Korea divided and at war, and a nation under sanction, a 
nation isolated without hope of a better future for its people 
through economic engagement, through educational exchanges and 
scientific exchanges and other forms of integration is 
unrealistic.
    So we need to shape the playing field. How to do it? It's 
time for the United States to lead decisively. The United 
States must create the conditions that existed at the time the 
Helsinki process was launched. It's important you, Senator, 
understand, the members of the commission understand, that the 
Helsinki process did not precede detente. In fact, the original 
openings for arms control and engagement with the Soviet Union 
had already been made by the time the Helsinki process was 
launched. But the Helsinki process was the critical expansion 
of the pathways of engagement that enabled what began as an 
arms control initiative really to take on strategic 
significance.
    In the case of North Korea, the United States needs to 
reach out, at a senior level, whether it's privately or 
publicly--it's a matter of tactics--but to communicate the fact 
that a new day is dawning with respect to how the United States 
intends to work with its partners in the region, and indeed to 
engage North Korea, to bring about a change in the strategic 
environment.
    The Helsinki approach would begin with a modest agenda, not 
the complete, irreversible denuclearization--although, to be 
clear, that has to be part of the end goal. You know, for the 
United States to abandon that would be folly of the highest 
order. It's a question of how we get there from here. You know, 
engagement would have to be given time to work. A change 
doesn't happen overnight, but there are signs of change in 
North Korea, change that we ought to be encouraging rather than 
ignoring.
    The alternatives to a Helsinki-style process don't offer us 
a quicker solution to the problem. I mean, this is one of the 
fundamental things that I've come to realize over a career of 
25 years dealing with this problem. You know, the folks who 
say, well, first we've got to solve the nuclear problem and we 
don't have time to wait for engagement to yield the fruits of 
engagement in terms of a change of North Korea attitudes. If we 
had just started this process 25 years ago we would be in a 
different place now. And there's no reason to believe that the 
North is going to change without outside and internal stimuli.
    So let's be candid: The United States has to lead. The 
strategic patience approach of the United States is not one 
that is likely to bring about change in the coming years. The 
good news is that there are many willing partners of the United 
States. As you mentioned, Senator, every other country in the 
region is crying out for U.S. multilateral engagement with 
North Korea. And our core strategic ally in the region, South 
Korea, President Park--with respect to the situation in North 
Korea, the core ally--has put forward a Seoul process, 
``trustpolitik'' initiative, which to me should be the root of 
this Helsinki-style form of engagement.
    Is any of this politically feasible in the United States? 
Where is the constituency for such an initiative? Well, look, 
I've been advising members of the Senate for 15 years in my 
prior life. There is--there are very few people in this town 
clamoring for President Obama to jumpstart diplomacy with North 
Korea, but the fact is that the American people may be more 
receptive to such an initiative than the members of congress 
generally believe.
    The recent polling data on Iran is a case in point. Despite 
all of the mistrust which characterizes U.S.-Iran relations and 
the nuclear outreach that the administration has launched, by a 
2-to-1 margin the American people support striking a deal with 
Iran even if that deal might eventually require sanctions 
relief and even if the results of that deal might not yield the 
complete elimination of Iran's nuclear program as a near-term 
result.
    Now, I know from first-hand experience that there exists a 
constituency for reform inside North Korea. I have met with 
them at the Academy of Science, at the universities, in the 
agriculture field, in the trade field. But they have been 
marginalized, undercut by years of failed nuclear diplomacy and 
heightened military tension.
    So I think, Senator, it's time to be bold. It's time for 
the United States to set the stage for a Helsinki style 
multilateral, multidimensional engagement process, one that 
would absolutely need to include the voices of countries like 
Mongolia and Singapore and Australia and New Zealand, countries 
that participated in the last attempt at anything like a 
strategic engagement, which was the agreed framework of 1994. 
Those countries were all a part of it to one degree or another. 
They should be brought back into the process.
    This process won't offer a quick fix, but one of the things 
that Amnesty International believes and that I believe is that 
the principal beneficiaries of such a process in the near term 
will be the North Korean people. They will be among the first 
to see meaningful benefits. And a policy that therefore puts 
the people of North Korea before the plutonium of North Korea 
can yield results for both.
    Thank you, Senator. I look forward to your questions.
    Mr. Cardin. Well, thank you for your testimony. And I agree 
with your conclusion that we have to be bold.
    The six-party talks as it relates to North Korea was viewed 
as a one-issue effort to deal with nuclear ambitions of North 
Korea and aimed at one country: North Korea. The establishment 
of a regional organization is a much broader aspect: not one 
country, not one issue.
    Ms. Lee, you mentioned that it would--could be perceived by 
North Korea as a ``Trojan Horse'' for regime change. I think 
that looking at this from a broader perspective, there's an 
argument that can be successfully made to counter those 
concerns.
    Mr. Gershman, you talk about it being viewed as 
liberalization of policies in autocratic countries. Once again, 
I think looking at it from a broader perspective, that argument 
can be successfully overcome in the countries that may have 
those concerns.
    The success of Helsinki was first trust. There is a lack of 
trust among the various players here. They believed each 
other's countries' intentions were not honorable. I've 
witnessed that firsthand in my visit to China and their view of 
U.S. intentions. And the Helsinki process helps establish trust 
by consensus. You can't get anything accomplished other than 
through consensus. We thought that would be a weakness and it 
ended up being the strength of the Helsinki process.
    Secondly, the principles are universal principles. They're 
not Western principles. And I think that's a key ingredient of 
the success of the Helsinki process.
    And then, third, diverse membership. When you look at 
Northeast Asia or look at East Asia, and you look at the 
countries that would be asked to participate in a regional 
organization, you look at Russia and the United States and 
China and North Korea, I don't think there would be anyone 
accusing us of stacking the deck in a consensus organization.
    And lastly, by way of example, we've had our problems in 
the United Nations. No question about it. The United Nations 
has a unique structure with the Permanent Council and the five 
members, but it has brought greater consensus when decisions 
are made.
    So I just would like to get your assessment as to how 
realistic it is to get the major players to invest in a 
regional organization for Asia that--concentrating on Northeast 
Asia we may go a little bit beyond that--whether this is a 
doable task or whether the concerns of ``Trojan Horses'' and 
liberalizations are too difficult to overcome.
    Mr. Gershman. I think if you have the local parties 
negotiating this, they will shape something that is acceptable 
to the local countries. And even today, you know, with the 
Kaesong agreement there's a process underway there and it 
involves the beginning of, you know, its economic activity, but 
there's also human contact that is taking place there.
    So the human contact that was encouraged in part of the 
Helsinki process is already part of this, and it has to be. 
There's no way in the world that--in the interconnected world 
that we live in today that you can dispense with this 
dimension. I think it's terribly unfortunate that North Korea 
cancelled the family visits. But, you know, I believe that 
President Park is determined and these visits will eventually, 
I hope, continue.
    The one thing I think we have to remember which is 
different about this process than Helsinki was that back in the 
time of Helsinki the Soviet Union wanted an agreement to 
formalize the borders from World War II. That was, in my view, 
their main incentive in wanting the Helsinki agreement. And as 
I understand it--and I welcome your own views; they may be 
different--that what we wanted as part of that was a ``basket 
three.'' And I don't see that kind of tradeoff in the process 
today.
    What I do see as the major incentive in the process today 
is this--the new security situation, which is extremely 
dangerous. I would not get obsessed about North Korea as we 
think about how to carry this process forward, because I think 
that the much more immediate and dangerous problem is what 
China has done in expanding its Air Defense Identification 
Zone, which is extremely dangerous. I mean, it could lead to 
the shooting down of civilian airliners. And a way has to be 
found to avoid miscalculations, to avoid these kind of horrible 
events to take place. And I think it makes the case as 
graphically as anything could that you need a system for 
anticipating problems and resolving disputes.
    Now, that doesn't address the kind of issues that Frank was 
talking about with North Korea, but I do think that in a way 
that is now on a separate track with the process that has been 
started with the Kaesong agreement, which I think is quite 
significant, even though it's run into some real difficulties 
with North Korea. And I think these processes have to move 
simultaneously. And in both processes, I think ultimately 
you're going to need to have a way to connect the societies in 
addition to having the militaries talk to each other and the 
governments talk to each other. And I think that's possible 
because it in my view, serves the interest of everyone in a 
globalized world.
    Mr. Cardin. Ms. Lee, I'm going to give you a chance to 
respond. First let me acknowledge that we have here today 
Ambassador Robert King, the State Department special envoy for 
human rights in North Korea. He's also a former staff director 
of the House Foreign Affairs Committee under the leadership of 
my dear friend Tom Lantos, who we miss these days. It's a 
pleasure to have Ambassador King in the room.
    Ms. Lee, I want you to respond to the question, but I want 
to just focus on one part of your testimony where you talk 
about people-to-people and the importance of people-to-people. 
And you give many examples where the United States has been 
difficult in facilitating the people-to-people exchange. And it 
seems to me, from North Korea's point of view, participation in 
a regional organization that includes the United States with 
its defined principles that encourage people-to-people would 
make those types of arrangements a lot easier to accommodate 
and could be a major point for North Korea's interest in such a 
regional organization.
    Ms. Lee. Thank you very much.
    I would say, on the issue of visas, I do think it would be 
of great benefit to rationalize that process. In general, it's 
possible to get visas--for North Koreans to get visas to visit 
the United States on humanitarian issues, and some--on some 
educational issues. But anything that strays beyond very 
limited range of topics can be very problematic at times of 
tension. And so when Frank mentioned earlier that the big 
package of the agreed framework was never realized, one of the 
things that was never realized was normalization of relations, 
or the kind of exchanges that we really would have wanted to 
see, with North Koreans being able to come over on a regular 
basis.
    And I wanted to comment a little bit on your question of, 
is there any hope? One of the big benefits of the four-party 
process and the six-party process was constant communication 
among the parties. And when we talk about the escalation of 
threats and danger in the region today, I believe it's because 
that kind of regional dialogue isn't taking place. I don't 
believe in the dismissive phrase ``talking for talking's 
sake.'' I actually believe that those conversations kept 
relations moving on a much more even keel.
    And in that regard I would say that the actual topic in 
some ways is less important than the actual process. And in 
that regard, I'm really intrigued by the statement you made in 
your opening comments that North Korea might be the focus now 
but it might not be the focus 10 years from now. That kind of 
perspective to me really opens the door for much more creative 
thinking on how to move a regional process forward.
    Mr. Cardin. Oh, absolutely. Depending of course on member 
countries, we would expect that there would be a variety of 
reasons beyond one country for creating this type of regional 
organization.
    Mr. Jannuzi, you mentioned being bold. Ms. Lee said it 
would take considerable U.S. investment to get this going. Is 
this possible, and how much effort will it take?
    Mr. Jannuzi. Senator, the United States is a great power. 
It's capable of doing many things simultaneously. We have 
talented diplomatic personnel like Ambassador King, who I 
believe, frankly, we're not making the most use of at the 
moment. And it's not because they're uninterested or haven't 
shown initiative. It's because it really requires, at the end 
of the day, a decision from the top to take some political 
risks in order to see whether there will be a reward.
    That risk calculation is a political decision far above my 
pay grade, always has been, but I think the key thing is to 
appreciate that the strategic patience approach also entails 
risks. The escalating risk of violence in the region is 
manifest. North Korea's conduct is not improving. Other 
regional problems that could be successfully mitigated through 
a Helsinki-style engagement process are in fact growing more 
acute. So we shouldn't assess the level of investment required 
against a zero sum. You know, we need to appreciate that what 
we're doing right now entails a cost.
    And finally, I would just say that the beauty of a 
Helsinki-style engagement is that the foundation on which it's 
based is one of sovereignty and equality among sovereign 
states. Now, that may be something that sticks in the craw of a 
lot of us when we think about the Democratic People's Republic 
of Korea, but I think that those who have engaged successfully 
in diplomacy with North Korea have done so on the basis of a 
certain level of respect.
    I briefed President Carter prior to his 1994 mission to 
Pyongyang, and I'll never forget that at the end of that 
briefing he turned to those of us at the State Department at 
the time--and we had spent all day briefing him and Rosalynn 
Carter about the realities of North Korea since he had left the 
presidency. And he turned to us and he says--he says, now, none 
of you have told me what I need to know. And I hung my head 
along with everyone else in the room--Robert Gallucci and 
others. He says, I need to know, what does Kim Il-sung want? 
And again I kind of looked under the table and tried to look 
for the answer that might be buried there. And finally 
President Carter said to all of us, he says, I'll tell you what 
Kim Il-sung wants. He wants my respect, and I'm going to give 
it to him.
    Now, at the core, solving this problem requires a certain 
suspension of disbelief and an engagement with North Korea as a 
sovereign nation, which means that it's not just their human 
rights record which will be on the table. They'll be allowed to 
raise human rights concerns that they have about the misconduct 
of the Japan during the colonial era. The United States may be 
able to raise concerns that we have with China about the 
treatment of North Korea refugees on Chinese soil.
    You know, this dialogue is not a one-way street where all 
of the concessions and all of the change has to happen in one 
direction. But that also holds the key to why it may be 
attractive to even a state, you know, such as in the 
circumstances of North Korea, because it gives them a sovereign 
opportunity to raise the concerns they have.
    Mr. Cardin. All right, let me give you three options and 
get your view as to which option you think would be the most 
fruitful to pursue.
    One option could be to build on the partner status that we 
have for countries that are not in the OSCE but under the 
umbrella of the OSCE to try to assist and help understand what 
is happening within the OSCE in their own bilateral and 
regional contacts. There are a lot of organizations in which 
that could be used that currently exist, but not creating any 
new organization but simply using the current available 
opportunities to get more partners in the region.
    The second option could be to build within the OSCE a 
regional organization for Asia, East Asia or Northeast Asia, 
that could build on the principles of OSCE with modifications 
as the region believes are necessary but not reinventing the 
principles of Helsinki.
    And the third is to create a separate regional organization 
patterned after Helsinki, which would require, of course, the 
member states to agree on the principles that they would abide 
by and the structure of the organization, which may be similar 
to OSCE but there's no assurance until after negotiations take 
place.
    Do you have a preference as to which of those three options 
the United States should invest its energy in?
    Mr. Jannuzi. Senator, if I might, for North Korea their 
assessment of the end goals of such a regional process will be 
affected by how it come into being and their own assessment of 
what the goals and purposes and outcomes were of the Helsinki 
process.
    And so I guess the one caveat I would have about--or the 
one concern I would have about building a special regional 
organization under the auspices of the OSCE directly is that we 
all know today that the Soviet Union no longer exists. Now, 
that wasn't the objective of the Helsinki process but it may 
very well be viewed as sort of the necessary outcome of such a 
process by some in North Korea.
    I think having a tutoring, mentoring, skills-sharing 
process--the first option that you outlined--as the beginning 
is the place to start, because there's great questioning going 
on right now in Pyongyang about how they attempt to improve 
their--their international situation, which is pretty dire, and 
educating and sharing what the process might look like would be 
the first step in getting them to buy in. And then I think you 
could decide later about whether, ultimately, it's a structure 
that is an outgrowth of the OSCE or a new standalone sui 
generis novel idea.
    I'm an incrementalist at heart, and I kind of am frightened 
by the notion of having to stand up something brand new. We 
have three years of negotiations about that process rather than 
replicating what's already working someplace else. So I think 
that there's a lot of reasons to favor your sort of a hybrid of 
that first option that you suggested, and then possibly, you 
know, see what becomes possible afterwards.
    Mr. Cardin. Good diplomatic answer. Ms. Lee.
    Ms. Lee. I very much appreciate what Frank has said and 
would endorse it. And I would just add something that Gershman 
said in his opening testimony, which is that the Northeast Asia 
peace and security working group, established as part of the 
six-party talks, they created a set of guiding principles for a 
regional structure, and that was based, in large part, on the 
Helsinki process.
    So the DPRK--all six parties agreed to that process. So 
that idea is already out there. You mentioned it yourself in 
your testimony. Unfortunately, when that negotiation process 
broke down, that idea, that concept, those conversations went 
into hibernation, but I think they could be brought back.
    Mr. Gershman. I think there's an awful lot of advice--
sharing of experience that can be transferred from the Helsinki 
process to what's going on today in Northeast Asia, especially 
in the area of military confidence building measures, to look 
at exactly what was done in the Helsinki process and--as a 
basis for what might be done in Northeast Asia today. And so 
there can be a lot of those kinds of contacts, but everything 
I've--you know, all the discussions that I've had with people 
in the region and what I've read is that there's a strong 
feeling that Northeast Asia is different. And I think we should 
start with that basis.
    And I really think we should see what our Mongolian friends 
have started there as an opportunity. And maybe if the U.S. got 
behind it--Mongolia is a small country; it was not part of the 
six-party talks, but it's strategically placed. It's very 
appropriate in the region to start a process. That's what they 
want to do. And it needs, I think, a little bit of buy-in from 
higher levels. And I think if the U.S., maybe in cooperation 
with its allies in the region, Japan and Korea, maybe starting 
a discussion with China which is, you know, neighbor of 
Mongolia to try to begin to encourage this idea because you now 
have the potential for a regular forum. It doesn't have to be 
the only one, but I think that, to me, is a more creative way 
to go, because it sort of recognizes the distinctiveness of the 
region and leaves them in charge of where this is going and not 
making it part of a structure which is largely seen as a trans-
Atlantic structure, even though it reaches to other regions.
    Mr. Cardin. I think your reference to Mongolia several 
times is very interesting. Of course, Mongolia, a member of the 
OSCE--full membership moving towards democracy has a working 
relationship with North Korea. All that's a positive to try to 
pattern their involvement in what has worked. I would also 
observe in regards to the concerns on liberalization that I 
think China has recognized the need for reform. I mean, they 
understand that. They understand their future is very much 
dependent upon becoming more respectful with regard to 
internationally-recognized basic rights. And they're moving in 
that direction; they've made tremendous progress, and they 
still have so far to go.
    So I think that there are some steps that have been taken 
in that regard. Now, Mr. Jannuzi, you mentioned the fact that 
they'll look at the demise of the Soviet Union into 10 separate 
countries as a concern--or seven, depending on how we define 
the Baltics, but no one is suggesting that North Korea will 
become smaller states. It's a little bit different 
circumstance.
    Mr. Jannuzi. It is indeed.
    Mr. Cardin. And so I'm not sure that that analogy is 
exactly of concern, but you do raise a question for me, and 
that is, what do we do about working with Russia? In all my 
conversations with the players from the region, they 
acknowledged that Russia needs to be part of a regional 
organization for it to be successful in that region, and that 
Russia, of course, does have the direct experience of its 
involvement within OSCE.
    I think I disagree with your assessment about Russia's 
initial involvement. I was not around at the time, but it was 
brought out to us that Russia wanted to get international 
recognition for their democratic reforms at the time, that they 
were open, and they thought that they were--that they complied 
with the Helsinki commitments and wanted the legitimacy of 
international recognition.
    But I understand that there may be different motives today. 
So I would welcome your thoughts as to the politics for Russia 
being willing to join this type of a framework within Northeast 
Asia, recognizing, of course, the six-party talks and the 
working group.
    Mr. Gershman. Well, it was part of the six-party talks, and 
I think to exclude it now would almost be seen as excluding----
    Mr. Cardin. And I'm not suggest that.
    Mr. Gershman. No, I know--but still, I think Russia--with 
all the problems we have with Russia, they want to be 
recognized as part of a process. I think it's Russia--and this 
is my own personal view, Mr. Chairman. I think it's a very 
vulnerable power today for demographic reasons and for many 
other reasons. And what's happening with Ukraine today is a 
serious crisis for Russia, where clearly the people of Ukraine 
want Europe. They don't want to be part of the customs union. 
But still, I think Russia therefore, probably because it has a 
lot of vulnerabilities, a lot of problems, would welcome being 
part of this. And when they were part of the six-party talks, 
they actually chaired the Northeast Asia peace and security 
mechanism working group.
    And everything I could tell--I was not part of those 
negotiations, but the views that Americans had of the way they 
were behaving within the six-party process was very positive. 
They played a constructive role. Maybe it's because of the way 
their interests weren't engaged here as they were, maybe, on 
their Western side or in the Middle East. But I think they 
should be a part of the process, but, you know, it's going to 
be a large process. It's going to be a large process, and 
obviously, the main drivers of this process today are going to 
be, you know, China, North Korea and Japan along with the 
United States, and--but I see no problem with having Russia 
part of this process.
    Ms. Lee. If I could just add something, I would say that 
the DPRK has no concern about being broken into constituent 
parts, but it does have some concern about being absorbed by 
the south, and that's why the recognition of sovereignty is so 
important.
    Mr. Cardin. But on that point, aren't they better being a 
full member of a regional organization that requires consensus 
than sitting out there sort of isolated?
    Ms. Lee. Absolutely--absolutely--but it's the question of, 
what's the ultimate goal? And the unfortunate thing is that 
conversations about human rights have been coupled with 
conversations about regime change in the past, and that has two 
problems. One, they can improve human rights without changing 
their government, and two, it gives them an excuse not to talk 
about human rights. So, I absolutely agree with you; being part 
of a regional structure that recognizes their sovereignty 
actually diminishes the fear that this process is being used to 
make them disappear.
    Mr. Jannuzi. And Senator, to your point--and I agree with 
both of my panelists here--I think Russia can and will want to 
participate in such a process. And I think one of the great 
advantages for the United States is that we've got human rights 
concerns about Russia. Amnesty International--I was proud to 
testify before your other committee--the Foreign Relations 
Committee a couple of months ago about the concerns that 
Amnesty International has expressed about the crackdown on 
freedom of speech and freedom of assembly, and especially LGBT 
rights in Russia right now.
    Wouldn't it be great to have another forum at which the 
international community could raise some of these issues in a 
spirit of regional cooperation and integration--not in one 
which is designed to be punitive or overthrow governments, but 
would really affect the opportunity for the United States and 
other players to express some of those concerns. Russia's human 
rights record right now leaves, you know, to say the least, 
much to be desired.
    Mr. Cardin. You're not going to get any argument from me on 
that one. Mr. Gershman?
    Mr. Gershman. Chairman, I just also want to add another 
element to this discussion. You know, we're focused very, very 
much on inter-government relations. And the assumption here is 
that somehow, recognizing North Korea as an independent and 
sovereign state would somehow reinforce the system. Well, you 
know, East Germany was recognized as an independent and 
sovereign state, and what good did it do when revolutions took 
place?
    And North Korea--this is just the objective facts. It's in 
a very vulnerable position, being next door to a very, very 
successful Korean society. Andrei Lankov has talked about this 
over and over again. And, you know, just simply the process of 
breaking down isolation--simply the process of breaking down 
isolation in the economic sphere, in the information sphere in 
all these different ways is going to open the North Korean 
people up to what's happening in the outside world and what's 
happening in South Korea. I think, frankly, this is a major 
factor here that accounts for what's happened in Burma when 
they realized how far behind they were lagging.
    So I have no problem with, you know, recognizing them as a 
sovereign part of these talks and so forth. I think the 
underlying processes are ultimately going to change North 
Korea, because it's in a--it's in a hopeless position, being a 
neighbor to a successful Korean society and being a failed 
society itself.
    Mr. Cardin. Well, I agree with you completely. With or 
without a Helsinki process, with or without Helsinki, the 
realities are that if a country cannot adjust to the economic 
reality of its region, its political realities and security 
realities, its future is not going to be very bright. That has 
been true in Europe; it'll be true in Asia with or without a 
Helsinki process. The globe is getting smaller. People see 
what's happening with their neighbors, and they demand a future 
for their families, and that's going to happen on the Korean 
peninsula. It's going to happen in China, and changes are going 
to happen with or without Helsinki. The advantage of Helsinki 
is that you have an orderly process where your sovereignty is 
recognized and you have an equal status at the table and you 
have a chance to not only improve, but to express your concerns 
about what's happening among your neighbors. Yes?
    Mr. Jannuzi. Senator, I just wanted to jump in because what 
you've just said is so important and worth underscoring.
    Mr. Cardin. Well then, jump in. (Laughter.)
    Mr. Jannuzi. North Korea, in its present configuration, 
with its present policies, with its present international 
circumstances, is not on a good trajectory, and I'm convinced 
that the leadership of North Korea, and more and more, the 
people of North Korea, know that. And really, the question is 
not whether there will be change. And by change--by--you know, 
I'm not talking about regime collapse or--necessarily, and 
there are many different scenarios under which change can 
happen. But the point is that every day that goes by without a 
Helsinki-style engagement process is a lost day to the 
international community in trying to promote and bring about 
those changes.
    It will happen much quicker, in a much more stable way, 
with greater transparency and with greater--with lesser risk of 
miscalculation and violence, with more cohesion and with less 
risk of great power misunderstandings, about the future 
trajectory of the Korean peninsula if it handles within the 
context of this process.
    I sat down with Senator Kerry in March of 2012 in New York 
along with Henry Kissinger and Jim Steinberg and Ri Yong-ho 
from North Korea and Volker Ruhe, the former German defense 
minister during the time of re-unification of Germany. We had a 
multilateral Track II conference in New York a year and a half 
ago, and the one thing I can assure you is, the North Koreans 
are not lacking in confidence. They understand that a process 
such as this would open them up to certain kinds of risks. But 
they're not imaging they're going to come out of the end of it 
as the loser, necessarily. They've got their own ideas about 
the superiority of their own system vis-a-vis the south 
ultimately.
    I mean, it may seem strange for us, sitting here--you know, 
those of us who have been to both places to imagine that that 
could be true. But I can assure you that the reason why this 
process, to me, is not a nonstarter in Pyongyang is because 
they can imagine a future in which they realize what they call 
``Juche,'' which is being masters of their own fate. And they 
don't believe that this process, necessarily, is contrary to 
that. I think--I agree completely with what's been said, which 
is that we should be maximizing--the international community 
should be maximizing--the international community should be 
maximizing its opportunities to help shape the direction.
    Mr. Cardin. We've spent a lot of time today talking about 
North Korea and a regional organization. We've talked a little 
bit about security issues with the maritime security challenges 
and that potential blowing up--the comparison to World War I is 
certainly frightening but real. Absolutely, there could be an 
incident that could mushroom out of control, and it's something 
that is of great concern to the United States and to all of the 
countries.
    We could be talking about environmental challenges, which 
are tremendous in that region; real security issues 
particularly with the coastal areas but also with the air 
quality, and particularly in China but in other countries as 
well. But we could be talking about two of our closest allies, 
the Republic and Korea and Japan, and their frosty 
relationships and the need to have a dialogue organization so 
that they can, hopefully once and for all, resolve their past 
differences and be able to move forward as close allies.
    I mean, there are so many underlining issues here that go 
well beyond just North Korea, which is certainly getting the 
headlines today, or the maritime issue, which is certainly 
getting headlines today. So, yeah, I think we do somewhat of a 
disservice if we don't make this a much broader initiative. And 
that's why I used the comparison originally to the six-party 
talks. And I understand the dialogue came out of that and North 
Korea has been the focal point of it, but it seems to me from 
the U.S. perspective and from the regional perspective there's 
a much broader agenda here.
    Final comments.
    Mr. Gershman. Well, I'd like to use what you just said as a 
way of making one additional point.
    In October I was in Korea for the launch of something 
called the Asia Democracy Network, which brings together the 
democracy actors from the entire Asia region, and then there 
will be subregional networks part of it. And it brings together 
cross-regional networks dealing with the very issues you're 
talking about: the environment, transparency, conflict 
resolution and so forth. And there will be a Northeast Asia 
democracy forum established out of this.
    So I think as we speak about the Helsinki process and the 
intergovernmental system, we should not overlook the 
nongovernmental dimension of this, which I think is much, much 
stronger today than it was in 1975. There are just many more 
hundreds, thousands of NGOs. They have a lot of influence. They 
are able to encourage and influence the policies of 
governments. And it's even beginning to develop in China. So I 
think we should keep this dimension of the scene in Asia very 
much on our minds. Thank you.
    Ms. Lee. First, I want to thank you again for the 
opportunity to testify today, and to say I was really impressed 
by Frank's optimistic testimony when he said, yes, we can do 
it, and we can put all the energy into it and we can make all 
this happen, because I'm a real incrementalist and I was 
thinking more in terms of promoting some of these regional 
civil society networks and ensuring that the kind of exchanges 
on issues of regional importance that people--countries 
participate out of their own self-interest and not because 
they're trying to contribute to some greater cause.
    These really can build a foundation, and that it's an 
excellent thing when the OSCE member countries can be engaged 
in those kinds of efforts and just bring in the experience of 
regional relationship building. And I mentioned only two 
topics, but there's a number of topics out there, and just to 
build support and the idea for this, it falls short of the 
vision of the process that you've raised today, but it can 
start immediately. And so support for those kinds of efforts to 
me is something we can work on this afternoon.
    Mr. Cardin. Good.
    Mr. Jannuzi. And, Senator, I also want to thank you for 
this opportunity to appear. And it's true what Karin says. I've 
never been accused of being a pessimist. My brother is a 
physicist out in the University of Arizona, and when I talk 
with him about optimism and pessimism he always points out to 
me, he says: Frank, you know, you see the glass is half full. I 
know that the glass is always full completely, half of water 
and half of air. And we have to view Northeast Asia today as a 
place not of just peril but of incredible opportunity and 
possibility.
    In terms of what can be accomplished, when you're starting 
from a low point where two of your treaty allies can barely 
talk to one another, where one of them--Japan--has territorial 
disputes with three of its major neighbors--Russia, China and 
South Korea--where human rights inside one of the member states 
of the region--North Korea--are at a nadir and at a point that 
is arguably one of the most horrific human rights conditions on 
the planet, you've got nowhere to go but up.
    And this process offers us opportunities to yield early 
harvest, especially if the advice that Ms. Lee has offered is 
followed and we begin where we can, and then by showing the 
possibility of such engagement we draw more and more political 
support to this process, which I think ultimately is an 
inevitable one and a necessary one to bring peace and security 
to Northeast Asia.
    Mr. Cardin. Thank you. And I appreciate you mentioning 
NGOs. They're a critical partner of the Helsinki process. And 
we would clearly want any initiative for a regional 
organization to partner and build with the NGO community.
    And I might just say, our annual meeting this year of the 
Parliamentary Assembly is in Azerbaijan and our participation 
is very much contingent upon NGOs having complete access, 
including from Armenia. And we're going to make sure that that 
is done if--with U.S. participation. So it's a very important 
point and I appreciate you mentioning that.
    I think this discussion has been very, very helpful. I 
fully understand the challenges of getting any type of regional 
agreements in Northeast Asia. I also understand the stakes are 
very high. And I think your comment about the start of World 
War I is a reminder that these somewhat regional issues can 
mushroom into very difficult international circumstances. The 
shipping lanes are critically important. They air lanes are 
critically important to international commerce. So there is a 
direct interest of the globe in what's happening in Northeast 
Asia today.
    And of course the threat of nuclear proliferation is an 
issue of global interest, and the environmental issues go well 
beyond just the region. So these are issues that affect all of 
us. And of course the United States, being a Pacific country 
and being a country that has always been interested in Asia, 
now with the rebalance that President Obama has talked about 
it's a good opportunity for us to exercise greater leadership 
to develop more permanent ways that we can resolve issues among 
the countries of the region to strengthen each country and to 
make the region a stronger region for security, for economics 
and for human rights and good governance.
    And that's our objective and that's why we are looking at 
this. And we very much appreciate the regional leaders who have 
come forward with suggestions, including in the six-party 
talks. And we intend to follow this up in the Helsinki 
Commission and the Senate Foreign Relations Committee. And we 
very much appreciate your participation here today. Thank you 
all.
    With that, the committee will stand adjourned. (Sounds 
gavel.)
    [Whereupon, at 2:23 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================

                          Prepared Statements

                              ----------                              


Prepared Statement of Carl Gershman, President, National Endowment for 
                               Democracy

    I want to thank you, Mr. Chairman, and the Helsinki Commission, for 
organizing this hearing at a critical moment in US relations with 
Northeast Asia.
    It was almost eight years ago to the day that I and several others 
active on the issue of human rights in North Korea joined with policy 
and Korean-affairs specialists to form a working group to consider how 
a comprehensive framework involving international security, economic 
cooperation, human rights and humanitarian aid could be developed for 
the Korean Peninsula and, more broadly, for Northeast Asia.
    Our decision to form this group followed the agreement reached in 
the Six-party Talks to explore ways of promoting a common political, 
economic and security agenda linking the two Koreas with China, Russia, 
Japan and the United States. This opened the door to creating a 
permanent multilateral organization for advancing security and 
cooperation in Northeast Asia, one of the few regions of the world 
without such a mechanism.
    Ambassador James Goodby of the working group, who had played a key 
role in developing the ``basket three'' human- rights provisions that 
became part of the Helsinki Final Act, drafted the first of several 
papers that spelled out how negotiations to resolve the North Korea 
nuclear issue and achieve a final settlement of the Korean War could 
evolve into a Helsinki-type process for Northeast Asia leading to the 
eventual creation of a multilateral--and multidimensional--organization 
for collective security.
    The effort to encourage such a process had the strong backing of 
Ban Ki-moon, at the time South Korea's Foreign Minister and now the 
U.N. Secretary General, who told a major gathering in Helsinki of Asian 
and European leaders that ``The challenge for Northeast Asia is how to 
draw upon the European experience to build a mechanism for multilateral 
security cooperation.''
    Building such a mechanism was the focus of one of the five working 
groups of the Six-party Talks, but efforts to implement the idea were 
aborted when the talks broke down at the end of 2008. Since then, 
international relations in Northeast Asia have become much more 
confrontational. The region suffers from what South Korea's President 
Park Geun-hye has called ``Asia's paradox,'' which is an acute 
discrepancy between the region's dynamic economic growth and 
interdependence on the one hand, and the rise of nationalism, conflict 
and distrust on the other. Clashes over disputed maritime space in the 
East China Sea, North Korea's nuclear threat and provocative 
brinkmanship, intensified military competition, and historically rooted 
tensions, even between such ostensible allies as Japan and South Korea, 
have heightened anxiety over prospects for violent regional conflict.
    The situation has just become even more dangerous with China's 
unilateral establishment of an Air Defense Identification Zone 
overlapping with Japan's own air-defense zone and encompassing South 
Korea's Ieodo reef as well. In the words of The Economist, ``China has 
set up a casus belli with its neighbors and America for generations to 
come.''
    Ironically, whereas North Korea's nuclear program was the catalyst 
for the Six-party Talks and the possible creation of a system of 
collective security for Northeast Asia, it is now the grave 
deterioration of the security environment in the region that could act 
as such a catalyst. The crisis certainly dramatizes the critical need 
for such a system, though that is a long-term goal while the immediate 
need is for measures to reduce risk, enhance communication through 
military hotlines and other instruments that might prevent 
miscalculations, and to begin to develop military confidence-building 
measures similar to those negotiated in the CSCE framework.
    Nonetheless, it is not too early to begin thinking about a more 
comprehensive architecture that would provide a forum for regional 
powers to discuss security. The Economist suggested that such a forum, 
had it existed in Europe in the early part of the last century, might 
have prevented the outbreak of World War I, and that there are 
disturbing parallels to the situation in Northeast Asia today, with the 
Senkakus playing the role of Sarajevo.
    For such a forum to be sustainable and effective, a security 
dialogue would need to be buttressed by a broader program of exchanges 
and economic cooperation. It has been said that adding a ``basket-
three'' human dimension would not work for Northeast Asia because the 
region's autocracies are well aware of the liberalizing consequences of 
the Helsinki process in Eastern Europe and the Soviet Union. But it is 
hard to imagine a system of collective security working without more 
interaction at the societal level, and having a broader context for 
negotiations would make possible trade-offs that might facilitate 
reaching an agreement. Northeast Asia may be different from the region 
encompassed by the Helsinki process, but the ``Sakharov doctrine'' 
regarding ``the indivisibility of human rights and international 
security'' has universal relevance and should not be abandoned, even if 
it has to be adapted to the circumstances of the region.
    In addition to the incentive provided by the current crisis to 
explore a new system of collective security for Northeast Asia, I want 
to note two other factors that can be helpful. The first is the 
vigorous support given to the idea by President Park when she addressed 
a joint session of the Congress last May. Her statement has of course 
now been overshadowed by the momentum toward confrontation, and South 
Korea's declaration of an expanded air defense zone partially 
overlapping China's and including Ieodo only adds to this momentum.
    Still, South Korea's understandable response to China's over-
reaching may help to establish the strategic balance needed to 
negotiate an end to the current crisis, and President Park's commitment 
to a system of collective security shows that she may want to use this 
crisis to make the case for a broader architecture.
    Her capacity to provide leadership at this critical time should not 
be underestimated. She demonstrated both toughness and a readiness to 
negotiate when, after a period of heightened tension following North 
Korea's nuclear test explosion last April, South Korea reached an 
agreement with the North to re-open the Kaesong Industrial Zone. This 
experiment in economic cooperation shows the potential of President 
Park's ``trustpolitik,'' though North Korea's cancellation of family 
reunions that were part of the Kaesong agreement also shows how 
difficult it will be to sustain any kind of engagement with Pyongyang. 
Still, her steadiness of purpose is encouraging, as is her desire, as 
she told the Congress last May, to extend the ``Trust-building 
Process'' she has started ``beyond the Korean Peninsula to all of 
Northeast Asia where we must build a mechanism of peace and security.'' 
That goal would be significantly advanced if she would also apply her 
``trustpolitik'' to Japan.
    The other helpful factor is the potential role of Mongolia. In a 
recent paper contrasting the challenge of building a collective 
security system in Europe and Asia, the Japanese diplomat Takako Ueta 
wrote that Northeast Asia lacks ``a neutral country with diplomatic 
skills and efficient conference support comparable to Austria, Finland, 
Sweden or Switzerland.'' But that is not true because Mongolia is such 
a country.
    Last April, when Mongolia chaired the Seventh Ministerial 
Conference of the Community of Democracies, its President Tsakhiagiin 
Elbegdorj announced the Ulaanbaatar Dialogue on Northeast Asian 
Security, an initiative to provide ``a dialogue mechanism on security 
in Northeast Asia'' that will give ``equal consideration of the 
interests of all states'' and set ``a long-term goal of building peace 
and stability in the region.''
    Mongolia has an unusual geopolitical situation. Sandwiched between 
China and Russia, it has maintained what President Elbegdorj called 
``neighborly good relations'' with these two big powers as well as with 
the other nations in the region, which he calls ``our third neighbor.'' 
It even maintains good relations with North Korea, which were not 
spoiled when he concluded a State Visit to the DPRK on October 30 with 
a speech at Kim Il Sung University in which he said ``No tyranny lasts 
forever. It is the desire of the people to live free that is the 
eternal power.'' He also told his North Korean audience that twenty 
years earlier Mongolia had declared herself ``a nuclear-free zone,'' 
and that it ``prefers ensuring her security by political, diplomatic 
and economic means.''
    Mongolia's international position is rising. In addition to 
chairing the Community of Democracies, it has joined the OSCE and may 
soon become a member of the Asia-Pacific Economic Cooperation 
organization (APEC). Last September, at the opening of the U.N. General 
Assembly in New York, President Elbegdorj was the only head of state 
invited to join President Obama in presiding over a forum of the 
Administration's Civil Society Initiative that seeks to defend civil 
society around the world against growing government restrictions.
    Henry Kissinger, writing about Austria's Chancellor Bruno Kreisky, 
observed that ``One of the asymmetries of history is the lack of 
correspondence between the abilities of some leaders and the power of 
their countries.'' President Elbegdorg is such an outsized leader of a 
small country, and the fact that he is now positioning Ulaanbaatar to 
play the kind of role in Northeast Asia that Helsinki once played in 
Europe could be an important factor leading to a system of collective 
security in Northeast Asia.
    This region certainly has its own distinctive characteristics, and 
Helsinki does not offer a readily transferable ``cookie-cutter'' model 
for East Asia or any other region. But as Ambassador Goodby said in one 
of the papers he wrote for our working group, ``so long as nation-
states are the basic building blocks of the international system, the 
behavior of these units within that system is not like to be radically 
dissimilar. History suggests that autonomous behavior by powerful 
nations--behavior that ignores the interests of others--sooner or later 
leads to disaster. The corollary of this lesson is that some mechanism 
has to be found, be it implicit or explicit, to allow for policy 
accommodations and for self-imposed restraint within a system of 
nations. To fail to do so is to make a collision almost inevitable.''
    Thank you, Mr. Chairman.
Prepared Statement of Frank Jannuzi, Deputy Executive Director, Amnesty 
                             International

                               __________
Putting People Before Plutonium
    The recent leadership shake-up in Pyongyang has thrust the 
Democratic People's Republic of Korea (DPRK) back onto the front pages. 
And while it is too soon to fully assess what impact the removal of 
Jang Song Thaek will have on the course of the country, his purge 
should remind all that North Korea is not a one-dimensional problem. It 
requires a multi-dimensional solution and an approach by the United 
States that is more ``can-do.''
    Until recently, one of the less appreciated facets of the conundrum 
posed by the Democratic People's Republic of Korea (DPRK) was its human 
rights record. Yet there should no longer be any doubt about the scale 
of the unfolding human catastrophe there or that it merits urgent 
attention.
    Amnesty International has chronicled the DPRK's endemic human 
rights abuses. Millions suffer extreme forms of repression and 
violations across nearly the entire spectrum of human rights. The 
government severely restricts freedom of movement, expression, 
information and association. Food insecurity is widespread, and there 
are persistent reports of starvation in more remote regions. As 
confirmed by recent Amnesty International satellite analyses and eye-
witness reports, roughly 100,000 people--including children--are 
arbitrarily held in political prison camps and other detention 
facilities where they are subjected to forced labor, denial of food as 
punishment, torture, and public executions.
    In January 2013, the UN High Commissioner for Human Rights, Navi 
Pillay, said that North Korea had ``one of the worst--but least 
understood and reported--human rights situations in the world.'' And 
last March, the UN Human Rights Council launched a Commission of 
Inquiry to examine allegations of ``systemic, widespread and grave'' 
human rights violations inside the DPRK, including crimes against 
humanity. The Commission will report its findings next spring.
    But, of course, the real question is not whether there are human 
rights abuses taking place in the North. The question is what can be 
done about them.
    Much the same can be said about the North's nuclear conundrum. 
There is no longer uncertainty about the nature of the problem. In 
defiance of the United Nations Security Council, the DPRK has produced 
fissile material, tested three nuclear devices, developed long-range 
missiles and constructed a modern facility capable of enriching 
uranium. Comprehensive economic sanctions have neither crippled the 
DPRK's ability to develop its nuclear arsenal nor persuaded its leaders 
to change course. In fact, the coercive tactics often favored by the 
international community--sanctions, diplomatic isolation, travel 
restrictions, limits on cultural and educational exchanges, suspension 
of humanitarian assistance and more--have arguably bolstered the 
legitimacy of those in Pyongyang who fear openness more than isolation.
``Military First'' Approach a Failure (and Not Just for Pyongyang)
    For the better part of 30 years, the United States and its allies 
have been trying to convince the DPRK to abandon its pursuit of nuclear 
weapons, with disappointing results. Most efforts, including the 1994 
Agreed Framework, at least acknowledged up front that the nuclear issue 
was enmeshed in larger questions about the past, present, and future of 
the Korean peninsula. Those issues include ending the Korean War, 
establishing a permanent peace mechanism on the peninsula and 
integrating the DPRK into Northeast Asia's economic and political 
community.
    Some initiatives, especially the Republic of Korea's ``Sunshine 
Policy,'' were also designed to lay the groundwork for the eventual 
peaceful unification of North and South Korea. More recently, President 
Park Geun-hye launched her ``Trustpolitik,'' recognizing that the 
North's nuclear weapons program is as much a symptom of underlying 
security concerns as it is the driver of them. President Park pitched 
her approach as one designed to separate humanitarian from security 
issues in the interest of building confidence and creating an 
atmosphere more conducive to forging peace and denuclearization.
    But even while acknowledging the complexity of the challenge, these 
various attempts to change North Korea's trajectory have mostly been 
focused on the narrow goal of denuclearization. Framework agreements 
have been struck. Cooling towers have been destroyed and international 
monitoring schemes devised. Leap Day deals have been crafted. All to 
convince the DPRK that living without nuclear weapons offered a pathway 
to genuine security preferable to the security offered by hugging a few 
kilograms of fissile material nestled inside a nuclear weapon.
    But few nations, least of all the DPRK, are inclined to disarm 
first and negotiate peace second. And the few times in recent memory 
when this approach has been tried cannot offer Pyongyang any 
encouragement. As Jeffrey Sachs wrote last spring:

          In 2003, Libyan strongman Muammar Qaddafi agreed with the US 
        and Europe to end his pursuit of nuclear and chemical weapons 
        in order to normalize relations with the West. Eight years 
        later, NATO abetted his overthrow and murder. Now we are asking 
        North Korea to end its nuclear program as we once asked of 
        Qaddafi. North Korea's leaders must be wondering what would 
        await them if they agree.

    If the United States and North Korea's neighbors hope to convince 
the DPRK to change course, they will need to keep a few basic facts in 
mind. First, the international community must not approach talks with 
the DPRK as if they were surrender negotiations. The leadership of the 
DPRK must see something of value in the negotiations for them. As 
President Carter told me before heading to Pyongyang in 1994 to sit 
down with Kim Il-Sung, ``Kim Il-Sung wants my respect, and I'm going to 
give it to him.'' Second, while it would surely set back the goal of 
denuclearization if the international community formally recognized the 
DPRK as a nuclear weapons power, former Secretary of Defense William 
Perry's admonition to deal with the DPRK ``as it is, not as we would 
wish it to be'' still has merit. The DPRK's nuclear and missile tests 
have altered the negotiating environment, and to pretend otherwise is 
folly. Finally, the North may be sui generis, but that does not mean 
that its leaders come from Mars or that their behavior is impossible to 
understand. In fact, many DPRK-watchers have good track records 
predicting how the North is likely to respond to various diplomatic 
threats or inducements.
    These stubborn facts do not bode well for Washington's most recent 
efforts to convince the DPRK to make a strategic choice to abandon its 
nuclear capabilities. The Obama Administration is demanding that the 
DPRK demonstrate its sincere commitment to denuclearization by taking 
concrete steps in advance of the resumption of Six Party Talks. The 
DPRK counters that it remains committed to the goals, including 
denuclearization, enumerated in the 2005 Joint Statement issued by 
participants in those talks. It seeks resumption of dialogue ``without 
preconditions.'' If the United States sticks with its current approach, 
the DPRK is likely to seize the initiative in ways that will only 
exacerbate existing tensions, perhaps by testing another long-range 
missile or accelerating efforts to enhance its nuclear capacity as we 
are seeing with the restart of its 5 MW reactor at Yongbyon.
    So, as Secretary of State John Kerry and Ambassador Glynn Davies, 
the US Special Envoy for North Korea, ponder how best to kick start the 
moribund Six Party process, they should heed the advice of British 
Parliamentarian Lord David Alton, chairman of the British-DPRK All-
Party Parliamentarian Group, who recently recommended a nuanced, 
carefully calibrated peace process, rather than a ``military first'' 
policy, to achieve the goal of denuclearization. Drawing lessons from 
the Helsinki Process of the 1980s, Alton wrote, ``What is needed now is 
a painstaking and patient bridge-building strategy, one which cajoles 
and coaxes, but does not appease.''
Altering the Playing Field--to Pyongyang via Helsinki
    It's time for the United States to launch a multilateral initiative 
designed to attack the DPRK's nuclear ambitions enfilade rather than by 
frontal assault. The objective would be to shift the focus of diplomacy 
from the North's plutonium to its people through a multilateral, 
multifaceted engagement strategy based on the Helsinki process launched 
by the United States and its allies during the Cold War.
    A Helsinki-style engagement strategy would have to be 
comprehensive, building multiple bridges of engagement. It could be 
designed to augment, rather than replace the Six Party Talks, assuming 
they can be resuscitated. Eventually, the parties must grapple with the 
North's pursuit of nuclear weapons and ballistic missiles, but the 
Helsinki-style approach would begin with a more modest agenda focused 
on confidence and security building measures to reduce tensions and the 
risk of conflict emerging from miscommunication or miscalculation. 
Other dialogue topics would include energy security, economic 
modernization, agriculture reform, international trade and finance, 
social welfare, health policy, education, legal and judicial systems, 
women's rights, refugees, freedom of religion and belief and the rights 
of the disabled.
    Engagement of this sort would have to be given time to succeed. It 
does not offer a quick fix to end the North's nuclear ambitions or 
eliminate its human rights violations, but neither do the alternatives 
of coercive diplomacy or military strikes. The goal would be to so 
fundamentally alter the situation that a treaty ending the Korean War 
and denuclearizing the Korean peninsula would be within reach rather 
than a bridge too far.
    This approach has a number of advantages. First, it has the 
potential to unify South Korean progressives, who first embraced the 
notion under the presidency of Kim Dae-jung, and conservatives, who see 
potential for it based on the model of German unification. Second, 
Helsinki-style engagement has proven its value already, helping to 
promote economic reform and greater respect for human rights inside the 
nations of the Soviet bloc. Third, it offers a step-by-step approach 
suited to a political environment devoid of trust. Initial small-scale 
confidence building measures--reciprocal actions that signal peaceful 
intentions--could create an environment more conducive to taking larger 
risks for peace. Finally, an inclusive, regional approach allays 
concerns that any one country would dominate the structure. It would 
also allow middle powers to play a constructive role--note the helpful 
advice on freedom of expression  Mongolian President Elbegdorj offered 
Kim Jong-Un in a speech to students at Kim Il Sung University during 
his recent visit to Pyongyang. [Obama Administration: please also note 
the deft way Elbegdorj combined soccer diplomacy with his official 
state visit.]
    So why hasn't the Helsinki concept gained more traction in the 
corridors of the Old Executive Office Building or the State Department? 
Perhaps because the necessary preconditions for a Helsinki process have 
not been met. The 1975 Helsinki Final Act did not begin the process of 
detente; it followed it. The wind-down of proxy wars in Southeast Asia, 
the agreement that ``Mutually Assured Destruction'' was not a preferred 
strategic nuclear doctrine, and the success of the first fledgling 
steps at superpower arms control all preceded the Helsinki Accords.
    Jump-starting detente in Northeast Asia will require a bold 
diplomatic opening--think Kissinger to China bold. President Obama 
would have to channel the ``yes we can'' spirit of 2008 rather than the 
``oh, no we shouldn't'' spirit of 2013. And the President will need to 
coordinate his approach with North Korea's neighbors and other 
potential partners, almost all of whom seem likely to embrace any move 
that breathes fresh life into the diplomatic process.
    Is this politically feasible? Diplomatic overtures to Pyongyang are 
rarely popular, but if recent polling data on US efforts to engage Iran 
are any guide, there may be more support for engagement than the 
President's advisers realize. Americans by a two-to-one margin support 
striking a deal with Iran, even if that deal requires sanctions relief 
and results only in restrictions on, and not elimination of, Iran's 
nuclear program. The United States should follow President Park's lead 
and move forward with a process of rapprochement. It should not set 
preconditions, such as requiring concrete steps by the DPRK to 
demonstrate its sincerity about denuclearization. The DPRK is NOT 
sincere about denuclearization . . . yet. And it won't be until more 
fundamental changes in Northeast Asia are affected through a Helsinki-
style multilateral process of engagement.
    It's hard to say exactly how the DPRK would respond to such an 
opening. Even with the purge of Jang, who was widely rumored to be a 
supporter of economic engagement with China, there exists a 
constituency for reform and opening up inside the DPRK. Officials 
managing energy policy, agriculture, light industry, science, and 
education have much to gain from reducing North Korea's political and 
economic isolation and cultivating foreign investment, trade, and 
exchanges. But their clout has been undercut by years of failed nuclear 
diplomacy and heightened military tension. Kim Jong Un and his cohorts 
cannot navigate the path toward peace and denuclearization in the dark. 
The world must illuminate that path for them.
    So as already mentioned, the United States and other members of the 
international community would be well advised initially to press for 
small, but real, confidence and security building measures. Carefully 
calibrated economic initiatives could follow, designed to bolster 
civilian, market-oriented agricultural and light industrial ventures. 
With time and effort, it is possible that the leaders of the DPRK could 
be persuaded--by both internal and external stimuli--to stop their 
provocations and begin to unleash the creative potential of the North 
Korean people. As this process gains momentum--bolstered by cultural 
and educational exchanges and humanitarian assistance--North Korea's 
leaders would gain the confidence they need to shelve and then abandon 
their nuclear weapons; decoupling their own futures from the North's 
limited nuclear arsenal. If engagement with the DPRK followed a 
trajectory similar to that of engagement with China, the people of 
North Korea would be among the earliest beneficiaries, seeing an 
improvement in all aspects of their lives, from nutrition and health to 
respect for their fundamental human rights.
Time To Be Bold
    The Administration's approach toward the DPRK has come to be known 
as strategic patience. ``Wise and masterly inactivity'' can sometimes 
be an effective tactic for defusing tension. But in this case, 
inactivity not only invites DPRK provocations, but also does nothing to 
encourage reforms or alleviate the suffering of the North Korean 
people.
    While there are no signs that the Obama administration is poised to 
launch any new initiatives in Northeast Asia, if talks with Iran are 
successful, that might change. The smart choice is to be bold. Engage 
Pyongyang without delay, not as a reward for bad behavior, but because 
it offers the best chance to gradually influence North Korea's conduct, 
encouraging it to respect international norms, protect the human rights 
of its people, and abandon its nuclear weapons.
    The 1975 Helsinki Accords set the stage for the end of the Cold War 
in Europe and led to the creation of the Organization for Security and 
Cooperation in Europe (OSCE). The Helsinki process worked in part 
because it built people-to-people contacts that translated later into 
political pressure for reform and opening up. It worked because it 
offered things of value to both sides in the Cold War, including 
enhanced security, tension-reduction, and economic opportunities. It is 
not hard to imagine the potential of a similar mechanism to improve the 
lives of all people living on or neighboring the Korean peninsula.
    The views expressed are those of the author, and do not necessarily 
reflect the positions of Amnesty International, USA.
 Prepared Statement of Karin J. Lee, Executive Director, The National 
                        Committee on North Korea

                               __________

    The Helsinki Process and Civil Society Activities with the DPRK

    Chairman Cardin, Co-Chairman Smith, and distinguished members of 
the U.S. Helsinki Commission, it is an honor for me to appear today to 
discuss Resolving Crises in East Asia through a New System of 
Collective Security: the Helsinki Process as a Model. I appreciate the 
opportunity to testify, and applaud the Commission for exploring this 
approach to the Democratic People's Republic of Korea (DPRK) and the 
Northeast Asian region.
    I have been the executive director of the National Committee on 
North Korea (NCNK) since February 2006. The NCNK creates opportunities 
for informed dialogue about North Korea among experts from a wide range 
of backgrounds and experiences in an effort to foster greater 
understanding in the United States about the DPRK. We address all 
aspects of U.S. policy toward the DPRK, including security and human 
security issues.
    I appreciate the opportunity to reflect today on the conditions in 
the United States and Europe that generated the Helsinki Final Act, and 
the differences and similarities with conditions in Northeast Asia 
today, which will inform the first part of my testimony. In the second 
part of my testimony, I will discuss U.S. and international private 
sector, nongovernment or civil society activities in the DPRK. My first 
opportunity to visit the DPRK was in 1998, and my most recent visit was 
this past October. During this period, I have been able to witness the 
creative programming non-governmental organizations (NGOs) and other 
civil society organizations have been able to implement in the DPRK.
    I will be making three key points. First, the history of the two 
regions and the historical moments are very different, and to implement 
a Helsinki-like process in Northeast Asia would take considerable U.S. 
and regional government investment and a policy consistency that is 
currently lacking today. Second, despite limited government support, 
admirable and productive work inside the DPRK and with North Koreans is 
taking place in humanitarian, education, and medical fields, and the 
United States can contribute to these efforts by delinking security 
policy from what the Helsinki process called Basket III, or 
humanitarian exchanges. Finally, exchanges on topics of genuine 
regional interest may contribute to a foundation for regional problem-
solving and should be encouraged both for the immediate practical 
benefits they can bring and in order to begin laying a pattern of 
cooperative regional behavior for the future.
1970s Europe and Northeast Asia Today: Similarities and Differences
    As the Commissioners know, the Helsinki Process did not represent a 
single moment in history and the outcomes of the Final Act were not 
fully anticipated in 1975. The Helsinki Process was not designed to 
undermine the Soviet bloc. To the contrary, the Act underscores that 
signatory states ``will respect each other's sovereign equality and 
individuality as well as all the rights inherent in and encompassed by 
its sovereignty'' and ``respect each other's right freely to choose and 
develop its political, social, economic and cultural systems as well as 
its right to determine its laws and regulations.'' \1\ Nevertheless, 
the Helsinki Process is sometimes credited with contributing to the 
changes that swept through the region a decade and a half later, and 
the OSCE is perhaps best known today for its ongoing work on human 
rights and democratization. For these reasons, the DPRK would likely 
look at a Helsinki Process designed for the Northeast Asian region as a 
Trojan Horse, synonymous with a covert strategy for regime change.
---------------------------------------------------------------------------
    \1\ Conference on Security and Co-operation in Europe Final Act 
Helsinki 1 August 1975. http://www.hri.org/docs/
Helsinki75.html#Introduction.
---------------------------------------------------------------------------
    Yet the Helsinki Final Act as it was originally conceived--a 
regional process with the primary goal of increasing regional stability 
by addressing the most salient interests of the opposing forces--may 
have merit. Therefore, in exploring whether or not it is possible to 
apply its lessons to the problems Northeast Asia currently faces, we 
should consider the Final Act's initial goals and the basis on which 
they were reached, not the impact it has come to represent. From this 
perspective, it is useful to examine the similarities and differences 
between Europe in the mid-1970s and Northeast Asia today.
Territorial Disputes and Arms Races as Possible Triggers of War
    Cold War Europe, like East Asia today, contained several 
territorial hotspots that threatened to trigger a broad conflagration. 
The U.S.-Soviet nuclear arms race and the posture of conventional 
forces on the Continent added to this tension. At several points in the 
early years of the Cold War, the contested status of Berlin nearly led 
to conflict between the two blocs. However, by the time the Helsinki 
process got underway, the security situation in Europe had become more 
stable, with detente leading both sides to a greater acceptance of the 
status quo and arms control agreements stabilizing the dynamics of 
mutually assured destruction.
    In contemporary East Asia, in contrast, longstanding points of 
regional tension have only gotten more heated in recent years, raising 
the fear that small incidents could spiral out of control and lead to 
military confrontations. Disputes over history and conflicting 
territorial claims to small outlying islands have raised nationalist 
fervors in the region. While tension between Japan and China over the 
Senkaku/Diaoyu Islands has been very high over the past year, it is the 
inter-Korean maritime dispute over the Northern Limit Line in the West 
Sea that has actually led to military clashes on several occasions. 
North Korea's continuing progress in developing nuclear weapons and 
long-range missiles deeply threatens the security of the region, while 
South Korea's recent vow to retaliate against a new North Korean 
provocation by striking ``not only the origin of provocation and its 
supporting forces but also its command leadership'' \2\ further 
increases instability and the risk of war by misadventure.
---------------------------------------------------------------------------
    \2\ Maj. Gen. Kim Yong-hyun, quoted in Choe Sang-hun, ``South Korea 
Pushes Back on North's Threats,'' New York Times, March 6, 2013.
---------------------------------------------------------------------------
Prioritization of Foreign Policy Issues
    Throughout the Cold War, the top foreign policy priority of the 
United States was unambiguous: mitigating the geopolitical threat of 
the Soviet Union. In this bipolar power system, the Helsinki Process 
was just one of the tools by which the U.S. used diplomatic engagement 
to manage and reduce the risks posed by the USSR. For example, in 
addition to the Helsinki Process, the U.S. pursued rapprochement with 
China, engaged in arms control negotiations, and authorized commercial 
activities such as grain exports to the USSR.
    Today, the U.S. does not have such an overriding policy priority, 
and Northeast Asia is just one of several regions of strategic 
importance to the United States. While U.S. troops have withdrawn from 
Iraq and will soon withdraw from Afghanistan, events in the Middle East 
continue to receive the most high-level attention from policymakers. 
The U.S. rebalance to Asia is focused more on Southeast Asia than on 
Japan or Korea, and as instability has increased on the Korean 
Peninsula, the State Department has eliminated a high-level staff 
position working on North Korea.
    Yet Northeast Asia now faces three major points of tension--on the 
Korean peninsula, in Sino-Japanese relations, and to a lesser extent in 
South Korean-Japanese relations--that could potentially interact with 
each other in ways that could cause spikes in tensions and make it 
harder to ensure that crisis situations do not spin out of control. 
Furthermore, as the center of the global economy shifts toward Asia, 
the geo-economic considerations of regional instability are profound. A 
Helsinki-like process could shift the emphasis from regional bilateral 
relationships to regional multilateral solutions, but getting to this 
point will require the sustained attention and effort of the United 
States.
Multiple Agreements Prior to the Helsinki Final Act Created Momentum
    During the Cold War, several gradual steps between the two Germanys 
(German rapprochement was an essential component of greater regional 
initiatives) and between the two blocs created the conditions that 
allowed for the CSCE dialogue to begin in 1973 and conclude with the 
Final Act in 1975. These steps included early cultural and educational 
exchanges, and gained pace in 1963 with the Limited Test Ban Treaty and 
the Christmas border pass agreement in Berlin. Beginning in the early 
1970s, the two sides reached a series of diplomatic breakthroughs, 
including the abandonment of the Hallstein Doctrine blocking third 
countries from establishing diplomatic relations with both East and 
West Germany,\3\ the Four Party Agreement on Berlin in 1971, the 1972 
Salt I agreements, and the Basic Treaty between the two Germanys, 
ratified in 1973. By defusing specific points of tension and quieting 
the arms race, these agreements set the stage for broader engagement on 
security, trade, and humanitarian issues between East and West.
---------------------------------------------------------------------------
    \3\ The U.S. and the GDR established diplomatic relations in 1974.
---------------------------------------------------------------------------
    Northeast Asia does not have a strong historical tradition of 
multilateralism, although the Shanghai Cooperation Organization, the 
Asia-Europe Meeting, ASEAN Plus Three, the Shangri-La Dialogue and the 
East Asia Summit could serve as a foundation for future regional 
organizations with broader capacities. In addition, the annual China--
Japan--South Korea trilateral summit holds hope for improving 
trilateral coordination among the three countries and increasing 
cooperation and peace in the region.\4\
---------------------------------------------------------------------------
    \4\ In 2011 a Trilateral Cooperation Secretariat was established in 
Seoul, making it the regional forum with the most well-established 
support structure.
---------------------------------------------------------------------------
    However, many of the security agreements underpinning diplomatic 
relations in Northeast Asia face significant challenges. The treaty 
establishing diplomatic relations between South Korea and Japan in 1965 
did not address the issue of comfort women during World War II, or the 
status of the Dokdo/Takeshima islets--two disputes that haunt ROK-Japan 
relations today. Similarly, Japan's treaty establishing relations with 
the PRC ignored the Senkakus/Diaoyu dispute.
    Security arrangements on the Korean Peninsula are particularly 
problematic. The Korean War never officially ended: each half of the 
Korean Peninsula claims sovereignty over its entirety, and the U.S. has 
not established diplomatic relations with the DPRK. Earlier this year, 
North Korea declared the Armistice Agreement that ended fighting in the 
Korean War ``completely nullified.'' \5\
---------------------------------------------------------------------------
    \5\ ``US, S. Korea to be Held Accountable for Catastrophic 
Consequences: CPRK,'' Korea Central News Agency, March 11, 2013.
---------------------------------------------------------------------------
    Several of the major agreements on the Korean Peninsula, such as 
the September 19, 2005 Joint Statement on Denuclearization or the joint 
statements from the two inter-Korean summits, demonstrated initial 
successes. For example, the Northeast Asia Peace and Security Working 
Group established as part of the Six Party Talks created a set of 
guiding principles, agreed to by all six parties, that included 
parameters for developing peace-building and confidence-building 
mechanisms which were based to a large extent on the Helsinki Final 
Act, the UN Charter and the Universal Declaration of Human Rights.\6\ 
However, none of the major agreements on the Korean Peninsula have been 
fully implemented and they have therefore lost momentum; in many cases 
both sides have failed to live up to their obligations. The critical 
question is why and how these agreements have lost momentum, and how to 
change that calculus moving forward.
---------------------------------------------------------------------------
    \6\ Frances Mautner-Markhoff, personal communication, December 8, 
2013.
---------------------------------------------------------------------------
Foreign Policy Consistency
    The development of a consistent, nonpartisan West German policy 
toward East Germany was a necessary element of rapprochement between 
them. Ostpolitik, a policy to improve West Germany's relations with 
East Germany, Poland, and the Soviet Union, was developed under the 
leadership of Social Democrats, including Chancellor Willy Brandt. It 
initially faced many challenges from opposition parties, particularly 
the Christian Democratic Union. However, Brandt was re-elected in 1972 
and the Berlin Treaty was ratified in 1973. Helmut Schmidt, also a 
Social Democrat, became Chancellor in 1974 and signed the Final Act the 
following year. After the West German opposition regained power in 
1982, Chancellor Helmut Kohl pursued a similar policy line toward the 
GDR, maintaining continuity in inter-German relations. U.S. policy in 
support of German rapprochement also remained consistent in spite of 
increasing tension with the Soviet Union over security and human rights 
issues.
    In contrast, South Korea's North Korea policy has been partisan and 
inconsistent. South Korean policy changed drastically between the 
conciliatory ``Sunshine Policy'' of President Kim Dae-Jung and the 
succeeding ``Peace and Prosperity Policy'' of Roh Moo-Hyun (1998-2008) 
and the more confrontational approach of President Lee Myung-Bak (2008-
2013). President Park Geun-Hye has vowed to seek a balanced 
approach,\7\ and some hope that she will ultimately be able to forge a 
policy that garners greater support throughout the Korean Peninsula and 
that can be sustained through future administrations.
---------------------------------------------------------------------------
    \7\ President Park's strategy towards the DPRK is known as 
trustpolitik. For further reading see, Park Geun-Hye, ``A New Kind of 
Korea: Building Trust Between Seoul and Pyongyang,'' Foreign Affairs 
(September 2011).
---------------------------------------------------------------------------
    U.S. policy toward North Korea has also seen dramatic shifts, 
particularly when new administrations have taken office. Skeptical of 
the Clinton administration's diplomacy with North Korea, the Bush 
administration announced a North Korea policy review early in its 
tenure, and took an anti-engagement approach for several years before 
adjusting its policy during Bush's second term. And as the Obama 
administration's former NSC staffer Jeff Bader recounts in his book, he 
rejected in early 2009 a proposed message from Secretary Clinton to 
North Korea that ``focused mainly on the policy pursued by the Bush 
administration in its final weeks, so as to provide the North Koreans 
with a sense of continuity in policy.'' Bader argued that ``the new 
president and the new national security team . . . deserved a chance to 
consider the direction we were going in before the bureaucracy 
attempted to tie us to existing processes and policies.'' \8\ No 
regional process has a hope of succeeding until U.S. and South Korean 
policy have a chance to last beyond a presidential administration.
---------------------------------------------------------------------------
    \8\ Jeffrey A. Bader, Obama and China's Rise: An Insider's Account 
of America's Asia Strategy (Brookings Institution Press, 2012), Google 
Play edition, 70. Bader sought a policy toward the DPRK that was more 
consultative with the other four parties in the Six Party talks.
---------------------------------------------------------------------------
Regional Commitment to Economic Integration
    The momentum created in Europe by the Helsinki Process persisted 
and had a profound impact on how the region viewed itself, even after 
Cold War tensions began to flare up again in the early 1980s. The 
process of gradual economic integration between Western Europe and the 
Eastern Bloc created a set of overlapping interests that rusted holes 
into the iron curtain. Western European governments, for example, stood 
firm in their support for an energy pipeline linking Europe and the 
Soviet Union despite criticism of the project, calculating correctly 
that the USSR's economic motivations would outweigh the possibility 
that it would begin using the pipeline for political leverage.
    Growing economic ties between the countries of Northeast Asia, 
however, have not dampened political tensions in the region--a problem 
that President Park Geun-Hye has called the ``Asia Paradox.'' \9\ North 
Korea is the outlier in the region's economic success story, although 
China's economic ties to the DPRK are deepening and inter-Korean trade 
is also rebounding after the restoration of the Kaesong Industrial 
Complex (though not yet to pre-suspensions levels). Given the U.S. 
emphasis on sanctions, there has been some friction between the U.S. 
and its partners in the region over economic engagement with the DPRK, 
and if the Park government succeeds in its goal of expanding inter-
Korean economic relations, more of this tension can be anticipated in 
the future. Nonetheless, a multilateral process that pursues regional 
economic cooperation could be a stabilizing force. Rail or pipeline 
infrastructure connecting the two Koreas to their neighbors would be in 
the economic interest of all parties in the region; although current 
levels of mistrust on the Peninsula run too deep for this sort of 
large-scale project to be feasible today, it stands as an example of 
what could be accomplished if some security concerns were alleviated.
---------------------------------------------------------------------------
    \9\ President Park Geun-Hye, ``Speech to Joint Session of 
Congress,'' May 8, 2013. Accessed on December 6, 2013 at http://
www.ncnk.org/resources/publications/
President_Park_speech_at_US_Congress.pdf/.
---------------------------------------------------------------------------
Willingness to Compromise
    The Helsinki Process began with a proposal from the USSR to 
finalize post-WWII boundaries and guarantee territorial integrity, a 
proposal which was initially viewed with suspicion by the West. Neither 
the U.S. nor its allies were eager to set boundaries, but because the 
dialogue included topics that were primarily in their interest, such as 
human rights and economic engagement, the West was willing to 
negotiate. All participants in the Helsinki Process were there not to 
engage in dialogue for its own sake, not to appease the other side, but 
to further their own goals.
    In order to apply a Helsinki-like process to East Asia, the 
mechanism will need to bring everybody's concerns to the table. Doing 
this will require compromises, and will not always be easy politically. 
First, the U.S. and China will need to find more common ground in their 
stances toward North Korea--currently, there is an overlap in many 
fundamental interests, but not in priorities or tactics. Second, the 
U.S. and its partners in the region need to re-examine the incentives 
that have been offered to the DPRK in exchange for denuclearization, 
and be willing to find creative ways to break out of the current 
stalemate on the issue.
Political Will
    Although the Helsinki Process is today seen as a successful 
initiative, it is worth recalling that the Final Act was controversial 
in its time, and the Cold War tensions that re-emerged in the years 
afterwards cast doubt on its relevance. In signing the Helsinki 
Accords, President Ford withstood criticism from Congress and the 
public on human rights and border issues, and this gambit paid off in 
the long run. Similarly, the development of a multilateral security 
framework in Northeast Asia will be a long-term process, and there will 
undoubtedly be bumps along the road. It will entail taking political 
risks to get a meaningful agreement and implementation of that 
agreement, but merely continuing to go along with the status quo in 
Northeast Asia would ultimately be the far greater risk.
    It is also important to recall that U.S. allies in Western Europe 
played a more central role in moving the Helsinki Process forward than 
did the United States. This didn't make the U.S. security commitment to 
Europe any less credible or its political influence less relevant, but 
rather reflected a strong partnership and trust among allies as well as 
the European experience prior to World War II. As Northeast Asia is 
less integrated as a cohesive region than Europe, the U.S. may play a 
larger role in shaping a multilateral security dialogue. However, the 
impetus for such a process needs to come from within the region as 
well. President Park's call for a ``Northeast Asian Peace and 
Cooperation Initiative'' that would initially focus on regional 
confidence-building measures is a good start, and the U.S. should 
strongly signal its support for such a mechanism.
Asia Today
    The Helsinki Process spurred an uptick in private society 
initiatives and exchanges, and this may be the most important lesson we 
can look at today: what civil society initiatives are already taking 
place in the DPRK, and how can we support their expansion. The U.S. 
should support private sector and civil society initiatives by 
regularizing its visa process, remaining open to perspectives gained 
through Track II dialogue, lending support to humanitarian initiatives 
and person-to-person exchanges, and supporting regional initiatives.

         Private Sector Activities: People-To-People Exchanges

    President Ford's comments before leaving for Europe to attend the 
OSCE Conference where he would sign the Final Act in 1975 reflected a 
confidence in the positive impact and power of people-to-people 
exchanges:

          The fact that these very different governments can agree, 
        even on paper, to such principles as greater human contacts and 
        exchanges, improved conditions for journalists, reunification 
        for families and international marriages, a freer flow of 
        information and publications, and increased tourism and travel, 
        seems to me a development worthy of positive and public 
        encouragement by the United States.\10\
---------------------------------------------------------------------------
    \10\ Gerald R. Ford, ``Text of Remarks at a Meeting with 
Representatives of European Background Concerning the Conference and 
Security and Cooperation in Europe,'' July 25, 1975, in Gerald R. Ford, 
Public Papers of the Presidents of the United States (Washington, DC: 
Government Printing Office, 1975), Book Two, 1033. http://
quod.lib.umich.edu/p/ppotpus/ 4732052.1975.002/
103?page=root;size=100;view=image;q1=Gerald+Ford.

    By that time the U.S. and the Soviet Union had been participating 
in academic and cultural exchanges for two decades, while science and 
technology exchanges began in the 1972-74 period. The Final Act aimed 
to facilitate an expansion of such activities.
    Less than two years after the Final Act was signed, the U.S. 
Helsinki Commission convened a hearing to assess its implementation. 
Joseph Duffey, Assistant Secretary of State for Educational and 
Cultural Affairs, noted that other Final Act provisions broke new 
ground, but that since educational and cultural exchanges were already 
taking place the most significant impact was to expand exchanges at the 
nongovernmental level:

          The Final Act has confirmed, on a high political level, the 
        legitimacy of these programs which we have been conducting for 
        the past 20 years. Since the signing of the Final Act, we have 
        sought to expand these activities for the most part under 
        bilateral arrangements with these countries . . . We have 
        assisted private American institutions in establishing 
        exchanges, working closely with them, providing advice when it 
        has been sought, and in some cases, partial funding through 
        grants-in-aid . . . The most promising development is direct 
        contacts between universities in the United States, the Soviet 
        Union and Eastern Europe.\11\
---------------------------------------------------------------------------
    \11\ Joseph Duffey, Assistant Secretary of State for Educational 
and Cultural Affairs, Commission on Security and Cooperation in Europe, 
Implementation of the Helsinki Accords: Volume III, Information Flow, 
and Cultural and Educational Exchanges, May 19, 24 and 25 1977, 95th 
Cong., 1st sess., (Washington, DC: Government Printing Office, 1977), 
16-18.

    While the U.S. had a gradually growing array of private contacts 
and exchanges with the Soviet Union throughout most of the Cold War, 
there was only a minor presence of NGOs or UN agencies in North Korea 
until 1995 and 1996, after North Korea issued its first appeal for 
international assistance.\12\ Humanitarian aid efforts expanded rapidly 
in the 1990s in response to the North Korean famine, and in following 
years a handful of U.S. and other NGOs remained in the DPRK developing 
agricultural, medical and capacity-building programs.
---------------------------------------------------------------------------
    \12\ For more information on humanitarian assistance to North Korea 
see, Karin J. Lee, ``The United States Humanitarian Experience in the 
DPRK, 1996 to 2009--U.S. NGOs, the U.S. Administration and Congress,'' 
November 2007. http://www.ncnk.org/resources/publications/Humanitarian-
Conf-2009_Karin-Lee_US_Humanitarian_Experience.pdf.
---------------------------------------------------------------------------
Ongoing Civil Society Initiatives in North Korea
    The Engage DPRK mapping initiative is a tool that demonstrates the 
range of private sector activities that have taken place in North 
Korea. It was recently developed by Jiehae Blackman to ``help those who 
want work inside the country by illustrating the different foreign 
engagement activities that have taken place inside the DPRK.'' 
According to the www.EngageDPRK.org website, ``By identifying the 
various foreign activities throughout the country, ranging from noodle 
factories and retail stores to goat farms and vaccination programs, we 
endeavor to gain deeper insight into the living conditions of local 
communities, the kinds of projects that are possible, and the types of 
working relationships between foreigners and the DPRK government and 
citizens that make for successful, sustainable projects.''
    The initiative draws mainly from publically available information 
and therefore cannot be considered comprehensive; there are a number of 
activities that take place with little or no public profile. Even so, 
the results may be surprising to most Americans: for the 18 years 
covered by this project (1995-2012) the initiative was able to identify 
44,000 activities implemented as part of approximately 1,100 discreet 
projects carried out by 480 organizations coming from 29 different 
countries as well as the UN and other international agencies. These 
projects include humanitarian relief (assistance meeting immediate 
needs in health, nutrition, and emergency relief/rehabilitation), 
development assistance (meeting long-term needs), educational 
assistance (addressing educational needs for the general public), 
professional training (standalone introductions to new thoughts and 
principles, separate from capacity building), and business activities. 
Sports and cultural exchanges were not included in this project.
    The initiative provides a public interactive map on its website 
identifying the locations where these projects are being implemented 
throughout the country. Each project has been broken down into 
``activities,'' which are what users are able to see on the interactive 
map. Information was only uploaded when complete data was available; if 
data was missing (for example, the starting and ending dates), 
information about the activity was not included on the map. Because of 
this, information is less readily available in the early years covered 
by the initiative. Furthermore, only a fraction of Chinese businesses 
were included because information on their activities was incomplete.
    As can be seen in the screen shots in the appendix of all non-
business activities shown on the map, there has been a high 
concentration of activities in areas such as Pyongyang, South Pyongan, 
North Pyongan, North Hwanghae, South Hamgyong, and Kangwon Provinces. 
Such areas typically have high concentrations of population, are 
particularly vulnerable to flooding, or experience greater food 
insecurity because of lack of access to farms or markets. Many of the 
concentrations of activities also represent sites where an NGO, INGO or 
UN agency has worked long term with a particular community, farm, 
orphanage, hospital or clinic on projects to enhance food security 
(such as through an agricultural project or a food production facility) 
or on a medical project.
    As noted, this map captures some of the private sector activities 
from 29 countries, including the United States. Here are a few 
examples.
World Vision: Access to Clean Water
    World Vision's community development project in Dochi-Ri, a 
community of 12,000, increases access to clean water through building 
water systems and providing solar energy to provide electricity for the 
school and clinic as well local residents. World Vision also works to 
reduce malnutrition by providing school children with daily lunches. 
World Vision began its work in the DPRK in 1995 in response to a DPRK 
request for aid. Since then, they have provided noodle factories with 
equipment and supplies to produce meals for thousands of people, helped 
agriculture and health systems recover following the 1998 floods, and 
built greenhouses to improve vegetable production.\13\
---------------------------------------------------------------------------
    \13\ World Vision Website, http://www.worldvision.org/our-impact/
country-profiles/north-korea; Victor Hsu, ``A DPRK-Shangri-la,'' 
January 2009. http://www.ncnk.org/resources/newsletter-content-items/
ncnk-newsletter-vol-2-no-1-a-dprk-shangrila.
---------------------------------------------------------------------------
American Friends Service Committee: Improving Farming Techniques
    The American Friends Service Committee (AFSC) works with the 
Academy of Agricultural Science and four farms on programs tailored to 
the specific conditions of each farm, with an emphasis on experimenting 
with different farming methods to increase food production and to 
protect soil fertility. Most recently, AFSC has been training farmers 
in a new cultivation method that requires 25% of the seed and 
fertilizer normally used for seed-bed preparation and that also 
decreased the labor input needed for transplanting. The new method 
increases yields by 0.5 to 1 ton per hectare. Like other U.S. NGOs, 
AFSC has built unheated greenhouses, which can grow crops even in 
winter, bringing variety to the diet; the extra vegetable harvests also 
generate income for the farm, which is used to purchase necessary 
inputs such as tires and fuel. AFSC also brings farmers to China for 
study tours to introduce new farming methods. A farm manager notes that 
the cooperative farms with which AFSC works are the ``model farms'' in 
their counties: ``The government does field trips to our farms, we have 
visits by other farmers--so our country has ways of disseminating new 
ideas and ways of sharing knowledge.'' \14\
---------------------------------------------------------------------------
    \14\ AFSC Website: https://afsc.org/story/strawberries-winter-
afscs-program-north-korea; https://afsc.org/video/improving-rice-
production-north-korea-dprk; https://afsc.org/story/bringing-
sustainable-farming-farmers-together-china.
---------------------------------------------------------------------------
Pyongyang University of Science and Technology
    Founded by Korean-American Chin-Kyung ``James'' Kim, the Pyongyang 
University of Science and Technology (PUST) is the first private 
university in the DPRK. Originally conceived in 2001, its construction 
took nearly a decade. According to its Facebook page, President Kim 
started the school ``with a group of evangelical Christians who have a 
heart and prayer to make an eternal impact in North Korea by educating 
its future leaders''; \15\ it is funded by churches and received a one-
time donation from the South Korean government of one million U.S. 
dollars.
---------------------------------------------------------------------------
    \15\ PUST Facebook Page; https://www.facebook.com/pustkp.
---------------------------------------------------------------------------
    The 230-acre campus, with 17 buildings, held its first classes in 
October 2010. PUST currently has three schools: Information and 
Communication Technology (ICT), Industry and Management (IM), and 
Agriculture, Food and Life Sciences (AFL).\16\ Plans for a new School 
of Public Healthcare were discussed at the second international 
conference at PUST this past October, which featured researchers from 
the UK, Australia and the United States, as well as PUST graduate 
students presenting ``their interdisciplinary research integrating 
medical science, public health, and their own discipline in science and 
technology.'' All academic offerings have been designed to apply to 
purely civilian applications.
---------------------------------------------------------------------------
    \16\ Michael Alison Chandler, ``Private University in North Korea 
Offers Lessons in Science and World Peace,'' Washington Post, October 
7, 2011.
---------------------------------------------------------------------------
    PUST currently has about 400 undergraduates and 110 graduate 
students and plans to eventually expand enrollment to 2,000 students. A 
handful of PUST graduates have studied abroad or are currently studying 
at Sweden's Uppsala University and Britain's University of Westminster 
and Cambridge University.
University of British Columbia Knowledge Partnership Program
    The University of British Columbia (UBC) established the Canada-
DPRK Knowledge Partnership Program (KPP) in 2010, the first and only 
academic exchange program with North Korea in North America of its 
type. Each year the KPP brings North Korean university professors to 
UBC for a six-month study program at UBC on topics such as modern 
economic theory, finance, trade, and business practices. The North 
Korean professors also study English and attend culture classes. The 
North Korean scholars have come from Kim Il Sung University, Wonsan 
Economic University, the University of National Economy and the 
Pyongyang University of Foreign Studies. UBC Professor Kyung-Ae Park, 
who founded the KPP program, noted in an interview with the Korea Times 
that ``It is too early to measure the overall impact of the KPP as it 
is only in its third year. The KPP provides a non-political forum for 
open dialogue with North Koreans on a variety of issues to build North 
Korea's confidence in engagement with educational institutions and 
allow the formation of meaningful personal and institutional 
relationships.'' \17\
---------------------------------------------------------------------------
    \17\ Chung Ah-young, ``NK crucial for expanding Korean studies.'' 
The Korea Times, October 27, 2013.
---------------------------------------------------------------------------
Track II Dialogue
    Because official dialogue with the DPRK is sometimes strained or 
impossible, the nongovernment sector also engages with North Koreans on 
security matters in Track II or Track 1.5 dialogue.\18\ A handful of 
these dialogues have been taking place for over a decade, with several 
organizations hosting them at regular intervals. Some programs are 
primarily bilateral or focused on the DPRK, such as several dialogues 
held this fall which sought to test the possibility of the resumption 
of negotiations over the DPRK's nuclear and missile programs. Others 
are multilateral, such as the Northeast Asia Cooperation Dialogue 
(NEACD), which brings together academics and officials from each of the 
Six Party Talks countries to informally discuss regional issues and 
cooperation, including issues related to the DPRK. The Council for 
Security Cooperation in the Asia Pacific (CSCAP), another multilateral 
forum that includes the DPRK, similarly addresses regional security, 
but involves participants from a wider range of countries and covers a 
broader scope of issues.
---------------------------------------------------------------------------
    \18\ ``Track I'' refers to official meetings between or among 
official representatives from two or more governments. ``Track II'' is 
used to describe talks and meetings regarding policy issues at which 
there is no official government presence; Track 1.5 refers to 
unofficial dialogue with government officials participating in a non-
official capacity. This section draws from Karin J. Lee, ``NCNK 
Newsletter Vol. 1 No. 6: The DPRK and Track II Exchanges,'' November 6, 
2008.
---------------------------------------------------------------------------
    Some Track II dialogues have turned out to be valuable adjuncts to 
official diplomacy: for example both DPRK and US diplomats credited the 
June 30-July 1, 2005 National Committee on American Foreign Policy 
meeting with helping to restart Six Party Talks. U.S. Special Envoy 
Joseph DeTrani thanked organizers for playing a critical role in 
``getting this process back in motion,'' and North Korea's Ambassador 
Han Song Ryol said the meetings ``provided [the] decisive breakthrough 
for the resumption of the nuclear six-party talks.'' \18\ some 
occasions, Track II activities have also been used for sending 
important messages, such as North Korea's revelation in 2010 of its 
surprisingly advanced uranium enrichment program.
---------------------------------------------------------------------------
    \19\  ``The U.S. and North Korea: A Track II Meeting Brings 
Results'' The Carnegie Reporter, Vol. 3, No. 3, Fall 2005. http://
carnegie.org/publications/carnegie-reporter/single/view/article/item/
145/.
---------------------------------------------------------------------------
    While most Track II dialogues do not lead to such major 
developments, regular meetings with DPRK officials can allow for much 
more direct insight into North Korean thinking on foreign policy than 
one can get by reading statements published by the DPRK's state-run 
news media. For example, a Track II event held in the summer of 2012 
accurately indicated North Korea's stance over the following year. Much 
of the benefit of Track II also comes from two sides establishing 
relationships and familiarity with one another over time. Short term 
results in any Track II format (not only those involving North Korea) 
are rare, according to Dr. Ronald Fisher from American University; he 
says that ``Most of the successful interventions in this field involve 
a continuing series of interactions or workshops over time--sometimes 
ten years or more.'' \20\
---------------------------------------------------------------------------
    \20\ M.J. Zuckerman. ``Track II Diplomacy: Can Unofficial Talks 
Avert Disaster?'' The Carnegie Reporter, Vol. 3, No. 3, Fall 2005. 
http://carnegie.org/publications/carnegie-reporter/single/view/article/
item/136/.
---------------------------------------------------------------------------
Government Support
    One interesting point of comparison between the Eastern Bloc and 
Northeast Asia is the amount of U.S. government involvement in Basket 
III (humanitarian) activities. As noted above, government-sponsored 
programming with the Soviet bloc actually preceded the private-sector 
engagement proposed in the Final Act. Once the Final Act was signed, 
U.S. government and private sector officials could turn to the U.S. 
Helsinki Commission both for help overcoming obstacles and funding.\21\
---------------------------------------------------------------------------
    \21\ Allan H. Kassoff, director of International Research and 
Exchanges Board (IREX), commented that since IREX was founded in 1968 
it had become a ``major channel for advanced research between the US 
and the Soviet countries'' but that obstacles still remained--primarily 
in regard to access to information for western scholars. Kassoff hoped 
that the Commission could help to resolve these issues. Hearings before 
the CSCE, op cit., p. 72.
---------------------------------------------------------------------------
    In Northeast Asia, many governments, including the United States, 
have forged and continue to participate in exchanges--after all, the 
U.S.-China Ping Pong Diplomacy preceded the Helsinki Final Act by half 
a decade. The programs throughout the region are too numerous to 
review.
    However, government-initiated exchanges with North Korea are much 
less robust, although EU countries have supported some development and 
training activities.\22\ Not all of these programs have endured. After 
providing humanitarian relief in 1995 in response to the famine, the 
Swiss Agency for Development and Cooperation opened an office in 
Pyongyang in 1997, and began to implement a range of development 
projects, including running the Pyongyang Business School. But 
beginning in 2012, the SDC ended its development work and now 
implements ``a purely humanitarian programme'' in the DPRK, which aims 
to ``to improve food and income security, water supplies, waste water 
management and protection of the environment.'' \23\
---------------------------------------------------------------------------
    \22\ For example, Handicapped International's work in the DPRK is 
supported by the Dutch Embassy, the Belgian Direction Generale de la 
Cooperation au Developpement, the Swedish International Development 
Cooperation Agency (SIDA), and other sources. http://
www.handicapinternational.be/en/dpr-korea; North Koreans have also 
attended SIDA's short-term training programs, etc . . .
    \23\ SDC website, http://www.swiss-cooperation.admin.ch/northkorea/

---------------------------------------------------------------------------
    The U.S. government was the major donor of humanitarian assistance 
to the DPRK during the famine years, and also provided some funding for 
exchange programs in the years immediately following the Agreed 
Framework. However, beyond that, U.S. support for Basket III-type 
exchanges has been inconsistent.
    The most fundamental area where the U.S. government could support 
private exchanges is the issuance of visas for North Koreans to visit 
the United States. Whereas one of the key tenets of the Helsinki Final 
Act was that progress in one area would be delinked from progress in 
other areas, for most of the last two decades the U.S. policy has been 
to approve visas as an incentive or reward to the DPRK, while denying 
them to signal U.S. displeasure or to mete out symbolic ``punishment.''
    This practice of using visa approvals as part of the carrot-and-
stick approach has been employed by both Republican and Democratic 
administrations, and has not been across the board; during some 
periods, for example, visas have generally been routinely approved for 
humanitarian and academic programs. However, visas are considerably 
less routinely approved for political and cultural events, and approval 
of visits to Washington, DC has been rare.
    Cultural exchanges provide a good example of the sharp contrast 
between U.S. policy toward the Soviet Union in the '60s and '70s and 
current U.S. policy toward the DPRK. The visit of the New York 
Philharmonic to Pyongyang in 2008 was the most-widely reported visit of 
a U.S. music group to the DPRK, although it was just one of many U.S. 
musical groups non-governmental organizations have brought to perform 
in the DPRK.\24\ At the time of the New York Philharmonic's 
performance, musicians and organizers in both countries hoped to 
arrange a reciprocal visit by a North Korean orchestra to the United 
States. However, although DPRK orchestras have performed in several 
European countries,\25\ they have not performed in the United States 
because U.S. visas have not been granted.
---------------------------------------------------------------------------
    \24\ Other U.S. musicians who have performed in Pyongyang include 
chamber music, blue grass, Christian rock (the twice-platinum Grammy-
award band Casting Crowns won an award for their performance of Amazing 
Grace in Pyongyang), and a 150-man male chorus comprised primarily of 
ministers of music serving in Georgia Baptist Convention Churches, The 
Sons of Jubal. See Karin J. Lee, ``The New York Philharmonic in North 
Korea. A New Page in US-DPRK Relations?'' Japan Focus, March 11, 2008. 
http://www.japanfocus.org/-Karin_J_-Lee/2694#sthash.Hw4gpNdn.dpuf, also 
https://castingcrowns.com/node/626 and http://www.youtube.com/
watch?v=vOh6Hd9c3Qk&noredirect=1.
    \25\ See for example David Ng, ``Orchestras from North Korea, 
France perform concert in Paris.'' Los Angeles Times, March 15, 2012.
---------------------------------------------------------------------------
    U.S. government officials have explained that issuing visas is 
``one of the few points of leverage'' the U.S. government has over the 
DPRK.\26\ Yet the practice has had no effect on core DPRK policies. It 
has, however, undermined serious efforts to bring the fullest possible 
number of North Koreans to this country and introduce them to the 
realities of American society and culture.
---------------------------------------------------------------------------
    \26\ Personal communication, multiple officials on different 
occasions.
---------------------------------------------------------------------------
    The uncertainty of obtaining visas for North Koreans means that 
many civil society organizations will not invite North Korean groups to 
the U.S. unless they feel some confidence that visas will be issued; 
this dynamic has closed doors for exchanges in which North Koreans 
could have visited the United States and gained exposure to the breadth 
and diversity of the American experience.
    Without a doubt, U.S. safety and security interests must be of 
primary concern. No North Korean should be allowed to enter the U.S. 
without thorough vetting. And there are specific, limited instances--
such as requests to visit by DPRK officials at a particularly delicate 
time--when denial of visas may have symbolic and tactical utility. 
However, depoliticizing this issue would quietly remove a serious 
obstacle to broader and more regular exchanges at the interpersonal, 
cultural, educational, and professional levels.
Next Steps: Regional Networks
    As the private sector considers next steps, one area for growth may 
be regional programming on a range of humanitarian and environmental 
issues. As noted above, one of the sharpest contrasts between Europe in 
the 1970s and Northeast Asia today is the negative trajectory of 
regional disputes. While governments in Northeast Asia obviously have 
the key responsibility for overcoming these divisions and resolving or 
at the least diminishing the intensity of territorial disputes, 
regional bodies working on apolitical topics of mutual interest may 
prove a way to build a foundation for regional collaboration at a 
higher level.
    In this regard, some practitioners believe that scientific 
exchanges and ``science diplomacy'' may be of particular value in 
building bridges.\27\ One key reason is that the value to every country 
is indisputable; participation takes place out of pure self-interest. 
Positive outcomes in improving cooperation and communication beyond the 
topic of the exchange or cooperation program would be a welcome 
ancillary benefit but is not necessary for the program to succeed. 
Thus, although activities such as these may start out as civil society 
efforts, they could evolve into initiatives involving support and 
participation from the U.S. government in the future.
---------------------------------------------------------------------------
    \27\ For useful discussions of science cooperation with the DPRK, 
see Stuart J. Thorson, Frederick F. Carriere, Jongwoo Han, and Thomas 
D. Harblin, ``Notes on the SU-KCUT Research Collaboration and Exchange 
Program,'' and Linda Staheli, ``U.S. Science Engagement Consortium,'' 
both in Gi-Wook Shin and Karin J. Lee, eds., U.S.-DPRK Educational 
Exchanges: Assessment and Future Strategy, (Walter H. Shorenstein Asia-
Pacific Research Center Books, 2011). http://iis-db.stanford.edu/pubs/ 
23213/US_DPRK_Educational_Exchanges.pdf. 
---------------------------------------------------------------------------
Mt. Paektu/Changbaishan: Volcano Research
    Environmental issues provide a rich area for exchanges, especially 
when linked to disasters that have the potential to cause cross-border 
destruction like typhoons, earthquakes and volcanic eruptions. Mt. 
Paektu, (also known has Changbaishan, Mt. Baekdu and Baitoushan), an 
active volcano which straddles the Chinese/North Korean border, 
provides a useful example of the kind of collaboration that is possible 
when all sides have an inherent interest in an issue.
    As became obvious with the April 2010 volcanic eruption in Iceland, 
volcanic ash recognizes no borders. Mt. Paektu is ``considered to be 
the most dangerous volcano in China due to its history of large 
explosive eruptions.'' \28\ Recent Chinese research has detected 
``anomalous activity,'' resulting in a call for ``further research on 
monitoring this active volcano to reduce hazards and risks of future 
eruptions.'' \29\ China would face the greatest threat from flood 
damage or ``lahars'' (a mixture of water and volcanic ash --the lake 
holds 2 billion tons of water and the outlet is on the Chinese side of 
the border), and both sides are at risk from pyroclastic flows. 
Furthermore, depending on the season and the weather, volcanic ash 
could engulf North Korea and fall on Japan or Vladivostok.\30\ A 
Chinese research paper from 2003 noted that Changbaishan, along with 
two other active volcanos in China, ``pose a significant threat to 
hundreds of thousands of people and [would be] likely to cause 
substantial economic losses.'' \31\
---------------------------------------------------------------------------
    \28\ John Seach, Baitoushan Volcano. Volcano Live. http://
www.volcanolive.com/baitoushan.html. 
    \29\ Lingyun Ji, Jiandong Xu, Qingliang Wang, and Yuan Wan, 
``Episodic Deformation at Changbaishan Tianchi Volcano, Northeast China 
During 2004 to 2010, Observed by Persistent Scatterer Interferometric 
Synthetic Aperture Radar,'' Journal of Applied Remote Sensing, Vol. 7, 
No. 1 (October 4, 2013).
    \30\ Richard Stone and James Hammond, personal communications, 
December 7-8, 2013. See also Jiandong Xu et al., ``Recent Unrest of 
Changbaishan Volcano, Northeast China: A Precursor of a Future 
Eruption?'' Geophysical Research Letters, Vol. 39, No. 16 (August 28, 
2012); and Haiquan Wei, Guoming Liu, James Gill, ``Review of Eruptive 
Activity at Tianchi Volcano, Changbaishan, Northeast China: 
Implications for Possible Future Eruptions,'' Bulletin of Volcanology, 
Vol. 75, No. 4 (April 2013).
    \31\ H. Wei et al., ``Three Active Volcanoes in China and Their 
Hazards,''Journal of Asian Earth Sciences, Vol. 21, No. 5 (February 
2003), pp. 515-526.
---------------------------------------------------------------------------
    Mt. Paektu's location straddling an international border makes it 
particularly appropriate for international scientific collaboration. 
Projects designed to characterize the volcano, monitoring efforts, and 
planning of future eruption scenarios require gathering and sharing 
data across political borders; comprehensive information sharing 
increases the chances of a robust response to any volcanic activity.
    According to Dr. James Hammond, NERC Research Fellow, Department of 
Earth Science and Engineering, Imperial College London, ``Because of 
the lack of politics involved in understanding a potentially hazardous 
volcano, this topic has already generated significant international 
cooperation, including North Korean participation in some bilateral and 
regional meetings.'' For example, in 2011, under the Lee Myung Bak 
administration, the two Koreas held two ``expert meetings'' to discuss 
the volcano, although the proposed plans to hold a joint seminar and 
conduct a joint field trip to Mt. Paektu were never realized. That same 
year, the American Association for the Advancement of Science began a 
scientific collaboration project with the DPRK on Mt. Paektu's seismic 
activity. The UK's Royal Society joined the project in 2013, with 
participation by the Imperial College London and University of 
Cambridge.\32\
---------------------------------------------------------------------------
    \32\ Megan Phelan, ``New Partners Keep Watch Over North Korean 
Volcano,'' American Association for the Advancement of Science website, 
September 5, 2013. http://www.aaas.org/news/new-partners-keep-watch-
over-north-korean-volcano.
---------------------------------------------------------------------------
    Yet North Korea is not a regular participant in regional bodies 
focused on environmental disaster preparedness. For example, the Asia-
Pacific Region Global Earthquake and Volcano Eruption Risk Management 
Hub, established following the 2011 Tohoku Earthquake, includes strong 
representation from most Asian nations, including both China and 
Taiwan, as well as representative institutions from France and the 
United Kingdom. However, the DPRK is not on the membership list.\33\ A 
field trip of volcano experts to the Chinese side of Changbaishan/Mt. 
Paektu this past July did not include North Korean participants.
---------------------------------------------------------------------------
    \33\ http://g-ever.org/en/institute/index.html.
---------------------------------------------------------------------------
    Dr. Un Young Gun, the Vice Director of the DPRK Earthquake Bureau, 
was the lead author of a paper presented at International Association 
of Volcanology and Chemistry of the Earth's Interior (IAVCEI), the 
world's biggest and most high profile volcanology conference. The paper 
had four other Korean authors along with authors from the United 
Kingdom and the United States.\34\ However no North Koreans attended 
the actual conference, which took place this past July in Kagoshima, 
Japan.
---------------------------------------------------------------------------
    \34\ Un Young Gun, Ju Un Ok, Kim Myong Song, Ri Gyong Song, Ri 
Kyong Nam, James OS Hammond, Clive Oppenheimer, Kathy Whaler, Steve 
Park, Graham Dawes, and Kayla Iacovin, ``The Mt. Paektu Geoscientific 
Experiment,'' IAVCEI 2013 Scientific Assembly, Kagoshima, Japan, July 
20-24, 2013. http://www.iavcei2013.com/iavcei_hp/PDF/3W_3C-P23.pdf.
---------------------------------------------------------------------------
    Institutionalizing North Korea participation in regional and 
bilateral research would increase exchange of critical information and 
improve disaster preparedness, providing an immediate benefit to all 
countries concerned. Doing so could also provide an ancillary benefit 
of strengthening regional collaboration.
Medical Consortiums
    Another particularly beneficial area for scientific exchange could 
be medical consortiums, as demonstrated by the Middle East Consortium 
on Infectious Disease Surveillance (MECIDS). This consortium, which was 
established by the Nuclear Threat Initiative (NTI) in 2003, is composed 
of public health experts and Ministry of Health officials from Jordan, 
Israel, and the Palestinian Authority. The initiative has been quite 
successful, and members have overcome political divides in order to 
address the common threat of infectious disease emerging in the 
region.\35\ In 2006, the MECIDS network mitigated an avian influenza 
outbreak in just 10 days, and during the 2009 H1N1 outbreak, Israeli, 
Palestinian and Jordanian health officials held an emergency 
teleconference to discuss a joint action plan two days before the World 
Health Organization (WHO) call for collaborative efforts to address the 
emergency.
---------------------------------------------------------------------------
    \35\ NTI website, Middle East Consortium on Infectious Disease 
Surveillance, http://www.nti.org/about/projects/middle-east-consortium-
infectious-disease-surveillance/. See also the MECIDS website, http://
www.mecidsnetwork.org/.
---------------------------------------------------------------------------
    Medical cooperation in Northeast Asia is weak, and the DPRK is not 
included in relevant existing medical networks. For example, the DPRK 
is considered to be a part of the WHO Southeast Asia Region along with 
India and Thailand, whereas China, Japan, Mongolia, and the Republic of 
Korea are all members of the WHO Western Pacific Region.\36\ In 
addition to founding MECIDS, NTI founded two other regional networks, 
one in Southern Africa and one in Southeast Asia, which they have 
brought together under the Connecting Organizations for Regional 
Disease Surveillance (CORDS). However, no similar network has been 
formed in Northeast Asia.\37\ And APEC economies participate in the 
Asia Pacific Emerging Infections Network (AP-EINet) convened to foster 
transparency, communication, and collaboration in emerging infections 
in the Asia Pacific, but since the DPRK is not an APEC economy, it does 
not participate in the network.\38\
---------------------------------------------------------------------------
    \36\ http://www.searo.who.int/countries/en/; http://
www.wpro.who.int/countries/en/.
    \37\ NTI Website: http://www.nti.org/about/projects/CORDS/; http://
www.nti.org/media/pdfs/CORDS-strategic-plan_confirmed-final_DL_6-
29.pdf.
    \38\ AP-EINetwork website, http://blogs.uw.edu/apecein/
#.UqZAbPRDvmY. See also Ann Marie Kimball, Melinda Moore, Howard 
Matthew French et. al., ``Regional Infectious Disease Surveillance 
Networks and their Potential to Facilitate the Implementation of the 
International Health Regulations,'' Med Clin N Am Vol. 92 (2008), 1459-
1471. http://download.thelancet.com/flatcontentassets/H1N1-flu/
surveillance/ surveillance-2.pdf.
---------------------------------------------------------------------------
    Yet regional collaboration on infectious disease benefits citizens 
of all countries. Tuberculosis may be of considerable interest to 
Northeast Asia, especially given trends in the DPRK. WHO records showed 
fewer than 50 reported cases of TB per 100,000 people in the DPRK in 
1994; by 2011 that number had risen to 380 cases per 100,000.\39\ Only 
sub-Saharan Africa has higher reported TB rates. Up to 15% of those 
patients may have multiple drug-resistant (MDR) TB.
---------------------------------------------------------------------------
    \39\ As reported in Meagan Phelan, ``Science Reporter in North 
Korea Investigates Efforts to Fight Tuberculosis.'' American 
Association for the Advancement of Science website, April 25, 2013. 
http://www.aaas.org/news/releases/2013/0425_korea_tb.shtml. The rise in 
cases reflects both increased susceptibility to TB during the famine 
years and improved reporting.
---------------------------------------------------------------------------
    The WHO and the Global Fund are already active in treatment of TB 
in the DPRK, along with two U.S. NGOs (Christian Friends of Korea (CFK) 
and the Eugene Bell Foundation) and Stanford University. Since it was 
founded 15 years ago, the Eugene Bell Foundation has supported 80 
medical institutions to allow them to diagnose and treat tuberculosis 
and improve general health.\40\ In all the towns, cities and districts 
where they work--they are responsible for over one-third of the 
population in the DPRK--Eugene Bell has separate facilities for 
treating MDR-TB. Since 2008, the Eugene Bell Foundation has sent sputum 
samples from patients it suspects of having MDR-TB to Seoul for 
testing, and then treats patients accordingly.\41\
---------------------------------------------------------------------------
    \40\ http://www.eugenebell.org/english/main.asp?subPage=250. See 
also ``MDR-TB in North Korea: A Q&A with PIH's Dr. JK Seung,'' Partners 
in Health website, July 19, 2013. http://www.pih.org/blog/mdr-
tuberculosis-north-korea.
    \41\ Richard Stone, ``Public Enemy Number One,'' Science, Vol. 340, 
No. 6131 (April 26, 2013), pp. 422-425.
---------------------------------------------------------------------------
    In addition to providing general medicines and vitamins needed to 
cure TB and treat other ailments associated with TB and hepatitis, CFK 
provides hospital equipment, greenhouses and other agricultural inputs, 
as well as food. They also participate in hospital and rest home 
renovations and technical upgrades.\42\ CFK has worked with the DPRK's 
Ministry of Public Health, CFK, and Stanford to establish a National 
Tuberculosis Reference Laboratory (NTRL) in Pyongyang capable of 
screening for MDR-TB; NTI was an early collaborator in this project. 
According to Science Magazine, ``NTRL researchers can now diagnose TB 
cases that are resistant to first-line drug combinations, making it 
possible to spot patients who need more aggressive therapy. And the lab 
will soon add capacity to screen for extensively drug-resistant TB, 
known as XDR the worst strains, some of which are close to impossible 
to treat.''\43\ Stanford University microbiologist Kathleen England is 
continuing to train the NTRL researchers, hoping to achieve 
international accreditation, as early as 2015. Regional coordination 
and collaboration in this work could aid in treating TB in the DPRK and 
analyzing the spread of MDR-TB.
---------------------------------------------------------------------------
    \42\ Christian Friends of Korea website: http://cfk.org/about-cfk/
our-work/.
    \43\ Ibid.
---------------------------------------------------------------------------

                               Conclusion

    Enhanced multilateral cooperation is sorely needed to address the 
many security and humanitarian issues facing Northeast Asia, 
particularly in regards to North Korea. The historical experience of 
the Helsinki Process in Cold War Europe clearly demonstrates the many 
benefits such an arrangement, but the governments of contemporary 
Northeast Asia and the United States must first take steps to build 
genuine and lasting trust, and to begin seeing each other as potential 
partners rather than as rivals or enemies.
    Considering the current tensions in Northeast Asia, and especially 
on the Korean Peninsula, this is not an easy task. But given the risks 
of the status quo--with tension rising in the region, North Korea 
continuing its WMD development, and the prospect of an escalatory 
conflict breaking out on the Korean Peninsula--working toward this goal 
is strongly in the U.S. interest. Pursuing a regional process of 
dialogue and routinized cooperation would potentially be both 
stabilizing, and in the long run, even transformational.
    Encouraging greater person-to-person contact and exchanges is a 
low-risk, low-cost way of starting to move this process forward. NGO 
activities in the DPRK are addressing unmet humanitarian needs and 
contributing to the exchange of values and ideas. Cultural and 
educational exchanges add to the effectiveness of these ongoing 
efforts. If the Commission agrees with such an approach, then support 
for such activities in OSCE member countries, including a more 
regularized visa process in the United States, could be critical. 
Furthermore, if the countries of the region hope to succeed in 
establishing a dialogue on the many issues that divide them, 
cooperation on issues of mutual concern such as disaster preparedness 
or public health may be a way to build trust and initiate long-term 
cooperation.
    Again, I thank the distinguished members of the Helsinki Commission 
for inviting me to testify today, and I look forward to your questions.
    These remarks reflect my own views and are not necessarily the 
views of the National Committee on North Korea.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
